<html>
<title> - H.R. 1787, CONSERVATION OF ASIAN ELEPHANTS</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
               H.R. 1787, CONSERVATION OF ASIAN ELEPHANTS

=======================================================================

                                HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                                   on

                               H.R. 1787
  TO ASSIST IN THE CONSERVATION OF ASIAN ELEPHANTS BY SUPPORTING AND 
PROVIDING FINANCIAL RESOURCES FOR THE CONSERVATION PROGRAMS OF NATIONS 
   WITHIN THE RANGE OF ASIAN ELEPHANTS AND PROJECTS OF PERSONS WITH 
     DEMONSTRATED EXPERTISE IN THE CONSERVATION OF ASIAN ELEPHANTS

                               __________

                     JULY 31, 1997, WASHINGTON, DC

                               __________

                           Serial No. 105-49

                               __________

           Printed for the use of the Committee on Resources



                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 45-140 CC                   WASHINGTON : 1998
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                    JIM SAXTON, New Jersey, Chairman
W.J. (BILLY) TAUZIN, Louisiana       NEIL ABERCROMBIE, Hawaii
WAYNE T. GIL.CHREST, Maryland        SOLOMON P. ORTIZ, Texas
WALTER B. JONES, Jr., North          FRANK PALLONE, Jr., New Jersey
    Carolina                         SAM FARR, California
JOHN PETERSON, Pennsylvania          PATRICK J. KENNEDY, Rhode Island
MICHAEL D. CRAPO, Idaho
                    Harry Burroughs, Staff Director
                    John Rayfield, Legislative Staff
               Karen Steuer, Democratic Legislative Staff



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held July 31, 1997.......................................     1

Statement of Members:
    Abercrombie, Hon. Neil, a Representative in Congress from the 
      State of Hawaii............................................     2
    Farr, Hon. Sam, a Representative in Congress from the State 
      of California..............................................     4
    Miller, Hon. George, a Representative in Congress from the 
      State of California, prepared statement of.................     2
    Saxton, Hon. Jim, a Representative in Congress from the State 
      of New Jersey..............................................     1
        Prepared statement of....................................     2
    Young, Hon. Don, a Representative in Congress from the State 
      of Alaska, prepared statement of...........................     4

Statement of Witnesses:
    Dinerstein, Dr. Eric, Chief Scientist and Director, 
      Conservation Science Program, World Wildlife Fund..........    16
        Prepared statement of....................................    55
    Ireland, Andy, Senior Vice President, Feld Entertainment, 
      Inc.,......................................................    26
        Prepared statement of....................................    73
    Jones, Marshall P., Assistant Director for International 
      Affairs, United States Fish and Wildlife Service; 
      accompanied by David Ferguson, Chief, Branch of Middle 
      East, South Asia, and South African International Affairs, 
      United States Fish and Wildlife Service....................     5
        Prepared statement of....................................    34
    Maple, Dr. Terry, President/CEO, Zoo Atlanta.................    13
        Prepared statement of....................................    36
    Pearl, Dr. Mary, Executive Director, Wildlife Preservation 
      Trust International........................................    25
        Prepared statement of....................................    39
    Stuwe, Dr. Michael, Research Associate, Conservation and 
      Research Center, Smithsonian Institute.....................    23
        Prepared statement of....................................    64
    Sukumar, Dr. Raman, Chairman, IUCN/SSC Asian Elephant 
      Specialist Group...........................................    14
        Prepared statement of....................................    37

Additional material supplied:
    Johnsingh, Dr. A.J.T., and A. Christy Williams, Wildlife 
      Institute of India, prepared statement of..................    79
    Memorandum...................................................    50
    Text of H.R. 1787............................................    41



HEARING ON H.R. 1787, TO ASSIST IN THE CONSERVATION OF ASIAN ELEPHANTS 
 BY SUPPORTING AND PROVIDING FINANCIAL RESOURCES FOR THE CONSERVATION 
PROGRAMS OF NATIONS WITHIN THE RANGE OF ASIAN ELEPHANTS AND PROJECTS OF 
   PERSONS WITH DEMONSTRATED EXPERTISE IN THE CONSERVATION OF ASIAN 
                               ELEPHANTS

                              ----------                              


                        THURSDAY, JULY 31, 1997

        House of Representatives, Subcommittee on Fisheries 
            Conservation, Wildlife and Oceans, Committee on 
            Resources, Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:08 a.m., in 
room 1334, Longworth House Office Building, Hon. Jim Saxton 
(chairman of the Subcommittee) presiding.

STATEMENT OF HON. JIM SAXTON, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF NEW JERSEY

    Mr. Saxton. Good morning. The Subcommittee will come to 
order. The purpose of today's hearing is to discuss H.R. 1787, 
the Asian Elephant Conservation Act of 1997, which Mr. 
Abercrombie and I and 17 other members have introduced on June 
4, 1997.
    The fundamental purposes of this legislation are twofold: 
one, to create an Asian Elephant Conservation Fund, and, two, 
to authorize the Congress to appropriate up to $5 million per 
year to this fund to finance various conservation projects for 
each of the next five fiscal years.
    This legislation is modeled after the highly successful 
African Elephant Conservation Act of 1988 and the Rhinoceros 
and Tiger Conservation Act of 1994. The new authorization would 
be separate from those funds appropriated for African 
elephants, rhinos, and tigers.
    Under the terms of H.R. 1787, the Secretary of Interior 
would carefully evaluate the merits of each proposed 
conservation project, select those that best enhance the future 
of the Asian elephant, and give priority to those projects 
whose sponsors demonstrate the ability to match some portion of 
the Federal funds.
    In addition, the bill stipulates that the Secretary may 
accept donations to assist Asian elephants and shall spend no 
more than 3 percent of the amount appropriated to administer 
the fund.
    Unless immediate steps are taken to conserve this 
magnificent animal, it will surely continue to disappear from 
much, if not most, of its traditional habitat. We cannot allow 
the Asian elephant, which has such a direct impact on so many 
other species, to become extinct.
    The goal of H.R. 1787 is to stop the decline and hopefully 
rebuild the population stocks of this irreplaceable species by 
financing with a small amount of Federal money a limited number 
of conservation projects. I look forward to hearing from our 
witnesses. And at this time, let me turn to the Ranking Member, 
Mr. Abercrombie.
    [Statement of Mr. Saxton follows:]

  Statement of Hon. Jim Saxton, a Representative in Congress from the 
                          State of New Jersey

    Good morning. The Subcommittee will come to order. The 
purpose of today's hearing is to discuss H.R. 1787, the Asian 
Elephant Conservation Act of 1997, which Mr. Abercrombie and I 
and seventeen other Members introduced on June 4, 1997.
    The fundamental purposes of this legislation are twofold: 
(1) to create an Asian Elephant Conservation Fund; and (2) to 
authorize the Congress to appropriate up to $5 million per year 
to this Fund to finance various conservation projects for each 
of the next five fiscal years.
    This legislation is modeled after the highly successful 
African Elephant Conservation Act of 1988 and the Rhinoceros 
and Tiger Conservation Act of 1994. The new authorization would 
be separate from those funds appropriated for African 
elephants, rhinos and tigers.
    Under the terms of H.R. 1787, the Secretary of the Interior 
would carefully evaluate the merits of each proposed 
conservation project, select those that best enhance the future 
of the Asian elephant, and give priority to those projects 
whose sponsors demonstrate the ability to match some portion of 
Federal funds. In addition, the bill stipulates that the 
Secretary may accept donations to assist Asian elephants and 
shall spend no more than 3 percent of the amount appropriated 
to administer the Fund.
    Unless immediate steps are taken to conserve this 
magnificent animal, it will surely continue to disappear from 
much, if not most, of its traditional habitat. We cannot allow 
the Asian elephant, which has such a direct impact on so many 
other species, to become extinct. The goal of H.R. 1787 is to 
stop the decline and hopefully rebuild the population stocks of 
this irreplaceable species by financing with a small amount of 
Federal money a limited number of conservation projects.
    I look forward to hearing from our witnesses, some of whom 
have traveled great distances to be here today.

    [H.R. 1787 may be found at end of hearing.]
    [Memorandum may be found at end of hearing.]

    STATEMENT OF HON. NEIL ABERCROMBIE, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF HAWAII

    Mr. Abercrombie. Thank you very much, Mr. Chairman. I have 
a statement from the ranking member, Mr. Miller, which I would 
like permission to submit for the record at this point.
    Mr. Saxton. Without objection.
    [Statement of Mr. Miller follows:]

Statement of Hon. George Miller, a Representative in Congress from the 
                          State of California

    I would like to thank Mr. Saxton and Mr. Abercrombie for 
taking the initiative in sponsoring H.R. 1787, the Asian 
Elephant Conservation Act of 1997, and in holding this hearing. 
I am sure we will hear testimony about the threatened status of 
Asian elephants throughout Asia, and how this legislation can 
play an important role in the protection of this species.
    The need for legislation such as the Asian Elephant 
Conservation Act of 1997 has greatly increased due to the 
recent decision by the Convention on International Trade in 
Endangered Species of Flora and Fauna (CITES) to down list 
several popu-

lations of African elephants as well as to allow a one-time 
ivory sale in the near future. Many countries, including many 
in Africa and Asia that still harbor populations of wild 
elephants; scientists; and non-governmental organizations have 
expressed their concern that this decision will result in an 
increase in elephant poaching throughout all elephant range 
states. This legislation should help provide the infrastructure 
necessary to prevent such an increase in Asia.
    The successful implementation of the recent CITES decision 
to down list elephants will depend upon the members of the 
Resources Committee continuing to assume a leadership role in 
protecting elephants and other wildlife by creating innovative 
funding mechanisms, and effective wildlife conservation and 
protection programs. H.R. 1787 is but one example of the many 
types of programs that will be needed to protect elephants 
throughout the world under the new CITES regime.
    In another example of environmental leadership, this week I 
and 40 of my colleagues including Mr. Abercrombie, one of the 
sponsors of the Asian Elephant Conservation Act, introduced the 
Endangered Species Recovery Act. ESRA recognizes that U.S. 
actions overseas can play a major role in conserving endangered 
and threatened species--or can contribute to moving them closer 
to extinction. The legislation would require that Federal 
agencies consult with the Fish and Wildlife Service or the 
National Marine Fisheries Service before taking any action that 
might undermine the recovery of a threatened or endangered 
foreign species.
    All efforts to protect endangered species are important and 
as such, H.R. 1787 deserves our support. I look forward to 
hearing the testimony from our panel speakers, and thank them 
for their efforts to conserve Asian elephants.

    Mr. Abercrombie. Mr. Chairman, I believe that you have 
succinctly summarized all the elements associated with this 
legislation. In particular, I think that it is important to 
recognize, and I think we do in the persons of Mr. Jones and 
Mr. Ferguson, that the responsibility of the United States of 
America and, by extension, the responsibility of our overall 
Committee and this Subcommittee is not just national but 
international in scope.
    The United States has been given by fate and history the 
responsibility of taking a lead role with respect to the 
preservation and protection of species not only in this country 
but across the world. We know, of course, that species are 
interconnected.
    We are all interconnected and that borders, as such--that 
is to say geographic borders--political borders--even regional 
considerations, are not the sole criterion, let alone the 
scientific basis, for making decisions with respect to species 
preservation and protection.
    So this Committee--this Subcommittee I should say, Mr. 
Chairman, particularly when it comes to questions of 
transnational considerations I think has taken a lead under 
your leadership with respect to understanding the relationships 
of species throughout the world. And to the extent and degree 
the United States of America can participate on a worldwide 
basis in this activity, I think that it is our obligation and 
opportunity.
    And I am delighted to be here with you today and to be a 
co-sponsor of this bill. I look forward to the Asian Elephant 
Conservation Act being, if you will, the next step after the 
original Act where the African elephant was concerned in 
proving that there can be success international cooperation 
which hopefully will extend into other political and social 
areas as well. Thank you very much, Mr. Chairman.
    Mr. Saxton. I thank the gentleman from Hawaii. We have been 
joined by the distinguished gentleman from California, Mr. 
Farr, who I believe also may have an opening statement.

 STATEMENT OF HON. SAM FARR, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF CALIFORNIA

    Mr. Farr. Well, thank you very much. I don't have an 
opening statement, more of an observation and comment, Mr. 
Chairman, and I appreciate you having this hearing on this very 
interesting issue.
    I think I feel as you do and others do on this Committee 
that these breeding programs, if they indeed support animals in 
the wild, are appropriate. The concern I have, and as we get 
into the discussion today and as we draft the bill--get into 
the markup, I hope that none of the moneys that become 
appropriated from these funds would be used for captive 
breeding programs if there is no possibility of reintroduction 
of the animals into the wild.
    I don't think we ought to be breeding animals in sustained 
captivity and use taxpayers' moneys to do that, that 
essentially be used for commercial purposes. And I don't think 
the moneys ought to go to organizations or entities that breed 
elephants for commercial purposes. And I hope you will keep 
that in consideration.
    As we ban the import of animals from the wild, what we are 
doing is then wanting to increase the stock in a lot of areas. 
And what we do is we use--it ends up that we end up even with 
zoos selling their stock for commercial purposes. And I hope 
that that is not the intent and that we prohibit any moneys 
from being used for that kind of purpose. Thank you.
    [Statement of Mr. Young follows:]

  Statement of Hon. Don Young, a Representative in Congress from the 
                            State of Alaska

    Mr. Chairman, as a cosponsor of H.R. 1787, I am pleased 
that you are holding this hearing on our legislation to create 
an Asian Elephant Conservation Fund.
    This measure is modeled after the highly successful African 
Elephant Conservation Act of 1988 and the Rhinoceros and Tiger 
Conservation Act of 1994. It will authorize up to $5 million 
per year to be appropriated to the Department of the Interior 
to fund various projects to conserve the Asian elephant.
    This flagship species of the Asian continent is in grave 
danger of extinction. According to international experts, there 
are less than 45,000 Asian elephants living in the wild. On a 
daily basis, these animals face the loss of their forest 
habitat, poachers who kill them for their bones, hide, ivory 
and meat, capture for use in Burma's timber industry, and 
conflicts between elephants and man. While Asian elephants are 
found in 13 countries in South and Southeast Asia, nearly half 
of the wild population reside in India. Unless immediate steps 
are taken to help conserve this species, it will continue to 
disappear from its historic habitat.
    By enacting this legislation, it is my hope that the 
Department of the Interior will fund projects to update census 
figures, monitor known populations of Asian elephants, assist 
in anti-poaching efforts, develop improved conservation 
management plans, translocate highly endangered elephants, and 
educate the public on the value of protecting this species.
    This small but critical investment of U.S. taxpayer money 
will be matched by private funds and will significantly improve 
the likelihood that wild Asian elephants will exist in the 21st 
Century.
    We should not idly sit by and allow this magnificent animal 
to disappear from this planet. H.R. 1787 will not solve all of 
the problems facing the Asian elephant but it is a positive 
step in the right direction.

    Mr. Saxton. I thank the gentleman. We will now move to our 
first panel which is, of course, as Mr. Abercrombie noted, made 
up of Marshall Jones and Dave Ferguson, both of the U.S. Fish 
and Wildlife Service. Mr. Jones is Assistant Director for 
International Affairs, and Mr. Ferguson is Chief, Branch of 
Middle East, South Asia, and South African International 
Affairs. Mr. Jones, please proceed.

    STATEMENT OF MARSHALL P. JONES, ASSISTANT DIRECTOR FOR 
INTERNATIONAL AFFAIRS, UNITED STATES FISH AND WILDLIFE SERVICE; 
 ACCOMPANIED BY DAVID FERGUSON, CHIEF, BRANCH OF MIDDLE EAST, 
  SOUTH ASIA, AND SOUTH AFRICAN INTERNATIONAL AFFAIRS, UNITED 
                STATES FISH AND WILDLIFE SERVICE

    Mr. Jones. Thank you, Mr. Chairman. I have a written 
statement which I would like to ask your permission to have 
entered into the record. I will try to be brief in my remarks.
    Mr. Chairman, when it comes to the Asian elephant, I think 
the important word to focus in on is opportunity. Right now, we 
are missing those opportunities to be a positive force for 
conservation from the U.S. Government because we don't have a 
specific authorization or a specific program. We have a lot of 
projects which in one way or another have benefited Asian 
elephants.
    On my right is Dave Ferguson, who administers our program 
in India, which uses Indian rupees, which have accumulated and 
are dedicated to wildlife purposes--we have had a 10-year study 
of Asian elephants under that program, for example.
    I also have with me here, Dr. Susan Lieberman from our 
CITES Management Authority. She and Mr. Mark Phillips, who 
administers our African elephant program, are involved also in 
our CITES implementation where we have done things that will 
benefit Asian countries in terms of their CITES implementation.
    We have some indirect benefits to Asian elephants from our 
rhino-tiger program. Fred Bagley, who administers that program, 
is also here working with Dave. But, Mr. Chairman, we don't 
have any specific way to provide direct assistance to countries 
outside India if they come to us to ask for help with, for 
example, dealing with Asian elephant habitat needs; surveys of 
the population; work with local communities to help find ways 
to resolve conflicts between elephants and local villagers.
    We don't have a specific authorization, and we don't have a 
source right now for a program that will enable us to be a 
partner with all of the other organizations that are 
represented here today, many of whom are already very active in 
doing what they can to help. So, Mr. Chairman, we think that is 
a missed opportunity.
    On the other hand, thanks to you and to Mr. Abercrombie and 
the other co-sponsors of this bill, what you have put before us 
now is a chance to capitalize on an opportunity; for us to step 
forward to work in partnership with the range countries where 
Asian elephants occur; with nongovernmental organizations; with 
the corporate sector, like Ringling Bros., organizations that 
are genuinely interested in the conservation of Asian elephants 
in their native habitat.
    Mr. Chairman, we are prepared to do our best to take 
advantage of that opportunity, to work with you and this 
Subcommittee, with the Congress as a whole and with all of 
these partners if this bill is enacted.
    You will hear later today, Mr. Chairman, from a number of 
organizations that can tell you about the plight of the Asian 
elephant. I think it is also very nicely dramatized in the 
graphics that we have here today.
    Something else that really affected me, Mr. Chairman, is 
that very recently I had the opportunity to go through the 
exhibit that is in the lower level of the National Gallery of 
Art right now on the Angkor civilization of Cambodia. And in 
the very last room of that exhibit there is a statue right in 
the center of the room. It sits on a pedestal so that it is 
just about at the height of your eyes. It is a statue of the 
god, Ganesha, which has the body of a human but the head of an 
elephant.
    And, Mr. Chairman, I stood there for a few minutes very 
recently when I was there at the exhibit just looking at that 
statue. And that statue looks so powerful you almost feel like 
it could leap right off the pedestal and run through the room. 
And I thought about what that meant, Mr. Chairman. An artisan 
almost a thousand years ago was inspired by the power and the 
grace and the beauty of the Asian elephant to make that 
sculpture and has given us that feeling that he or she had in 
carving it.
    And I was even more affected, Mr. Chairman, when I found 
out that the name Ganesha means the resolver of difficulties. 
And I thought what you have done here with this bill, Mr. 
Chairman, has given us in the executive branch the opportunity 
to be resolvers of difficulties ourselves.
    And so we think that the spirit of that Asian elephant god 
is what should motivate all of us to be resolvers of 
difficulties, to work together, to extend a helping hand to the 
people in Asian countries who need our help to conserve this 
precious resource, and we are prepared to do our best to 
implement this bill if it is enacted into law. Mr. Chairman, 
with that, I think I will close and be prepared to answer any 
questions that you may have.
    [Statement of Mr. Jones may be found at end of hearing.]
    Mr. Saxton. Thank you very much, Mr. Jones. I can tell by 
your testimony how dedicated you are to these issues--not just 
your testimony, but by your history of your activities in these 
matters, and we appreciate that very much. We know that these 
programs that we put into law work because folks like you and 
Mr. Ferguson are here to see to it that they are implemented in 
an effective way, and we appreciate that. Mr. Ferguson.
    Mr. Ferguson. I have no comments at this time. No. Thank 
you.
    Mr. Saxton. OK. Then we will begin with some questions. Mr. 
Farr brought up an interesting subject which, frankly, I had 
not contemplated, and that is whether or not we are somehow 
helping to subsidize commercial enterprise. And I think this 
kind of leads me to a series of questions.
    Obviously, the $5 million, if it is to be appropriated in 
each of the 5 years, or some part of that $5 million will go a 
long way toward providing a spark I suspect to encourage a 
variety of other entities to become involved in the 
conservation program and those efforts by other governments, by 
other conservation groups. And I suspect that in some cases we 
are hoping to encourage the participation of commercial 
enterprises in the conservation project as well.
    So can you describe for us how you see these moneys being 
used and the relationship that they will have to other 
countries, other conservation groups, and other commercial 
enterprises?
    Mr. Jones. Thank you, Mr. Chairman. First of all, Mr. 
Chairman, I would note that the bill itself says that its 
purpose is to provide for the conservation of Asian elephants, 
and it has a definition which we think is very well-
constructed. It is a definition that uses concepts which are 
already found in other legislation tracing back to the 
Endangered Species Act and the African Elephant Act and the 
Rhino and Tiger Act and probably others too.
    So I think the bill itself, first of all, sets a very clear 
ground rule that any project we would approve must contribute 
to the conservation of the species, and there are a number of 
specific activities which are defined within the bill as 
constituting conservation.
    Now, Mr. Chairman, we are definitely not prejudiced against 
commercial enterprises, and we are looking forward to having 
opportunities to work with them. Those joint efforts would be--
need to be ones that fit within the definition and the scope of 
the bill, and that is conservation of the species.
    We also see a tremendous role, of course, for 
nongovernmental organizations; not only nongovernmental 
organizations in the United States such as the ones that will 
be testifying and the ones that have helped bring this bill 
along, but also sometimes smaller nongovernmental organizations 
within the range countries themselves, ones that are sort of 
grassroots organizations.
    There is an opportunity we think for everyone to 
participate in this. There are international controls on 
commercial trade in species that are listed under CITES, the 
Convention on International Trade and Endangered Species. 
Appendix I of CITES generally prohibits commercial trade.
    On the other hand, there are legitimate exceptions in CITES 
for species that have been bred in captivity and meet certain 
standards, and we have been trying to work with, for example, 
the circus community to find ways to be able to help them in 
their efforts with captive breeding and, where it is possible, 
to look ahead to legitimate trade under CITES that fits within 
the broad provisions.
    Commercial trade between two Asian countries for animals 
that would be used as beasts of burden probably would be and 
should be prohibited by CITES, and we would have no intention 
of being part of any program that was only for using elephants 
as commercial or work animals and didn't have a conservation 
aspect to it.
    Mr. Saxton. Mr. Farr----
    Mr. Farr. Mr. Chairman----
    Mr. Saxton. Go ahead, please.
    Mr. Farr. Thank you very much, Mr. Chairman. Well, I am a 
little concerned with that response because I think it is 
pretty broad. You know, I am used to preserving the mountain 
lion that is not in my district and certainly the California 
condor. There is never anything in those programs where you do 
habitat preservation or management that allows for some 
commercial spinoffs of that, to allow to breed the mountain 
lions either or provide habitat so that they can be used for 
any kind of commercial purpose.
    And I think unless you really put the emphasis on 
reintroduction of the animals in the wild and preserving the 
wild, then the pur-

pose for this legislation is inappropriate. I would like to see 
you tightening it up so that these captive breeding programs--
that there isn't any--if there is no possibility of 
reintroducing the animals to the wild or protecting the wild, 
then we ought not to be funding that program. Private sector 
funding can take care of that.
    Mr. Saxton. Let me reclaim my time, and let me just pursue 
a couple of items on this point. It is not our intent, and I am 
sure it is not your intent, Mr. Jones, to subsidize a breeder 
of Asian elephants that has in the United States or elsewhere a 
facility which is intended to breed and raise Asian elephants 
for sale or strictly for commercial purposes. Is that correct?
    Mr. Jones. Yes, Mr. Chairman. This bill is focused on the 
conservation of the Asian elephant in its range country. And I 
would say, Mr. Farr, I don't disagree with anything that you 
have said. I said we were looking for ways that we could work 
with the private sector. That is separate from this bill. We 
have other ways that we work with the private sector where they 
are interested in contributing to the conservation of Asian 
elephants in their range countries.
    All of the grants that we would give under this program we 
would want to be focused on enhancing the conservation of Asian 
elephants in their range countries. That means protecting their 
habitat. It certainly does not mean that we would somehow be 
subsidizing or financing captive breeding operations, for 
example, in the United States.
    That is a completely separate thing. We do seek to work 
with circuses and other entities where we can to encourage 
responsible breeding in the United States, but that is a 
separate thing. And that is not something that would come under 
the scope of this bill.
    Mr. Saxton. Mr. Jones, let me just ask one other question. 
A very important part of the program as you see it, I assume, 
is trying to involve and encourage the participation of 
commercial enterprise, private sector investment.
    And, therefore, it would seem to me that we need to be very 
careful in addressing Mr. Farr's concerns not to exclude those 
folks who you seek to involve in the program from being 
involved because they are commercial and inclined to take part 
in a conservation effort.
    In other words, if we are to put in place language that 
prohibits the very activities that we are trying to encourage, 
we would be counterproductive. And I just want to make sure we 
all agree on that point.
    Mr. Farr. If I may, Mr. Chairman, I don't think we ought to 
use taxpayers' moneys to subsidize the breeding of elephants in 
captivity to be used for circuses or for shows. I mean, I don't 
think that is the intent of having that animal on this earth. I 
do believe in the idea of preserving the habitat, as we are 
with the condors or with other kinds of endangered species, and 
I applaud that.
    I think, frankly, you are going to have to buy up habitat, 
and we are going to have to protect it and manage it and give 
people economic training on how ecotourism can be a replacement 
for the subsistence economy that so many of these rangelands 
have to live on.
    Mr. Abercrombie. Mr. Chairman?
    Mr. Saxton. Mr. Abercrombie.
    Mr. Farr. I support that but I don't support, you know, 
subsidizing----
    Mr. Saxton. I think we are all agreeing. Mr. Abercrombie.
    Mr. Abercrombie. We are. Yes. If you would yield to me, Mr. 
Chairman, perhaps I can help relieve Mr. Farr's very legitimate 
concern. And perhaps, Mr. Jones, if you could engage in a bit 
of dialog with me, perhaps you as well, Mr. Ferguson. Both of 
you are aware--Mr. Jones, in particular--I believe you are 
aware of the hearing we had previously--an informational 
hearing--Asian elephant or information that came to us about 
habitat and clash, the competition for habitat between--
particularly as urban areas expand in south Asia. You are 
familiar with this whole situation, are you not?
    Mr. Jones. Yes, sir. Although I didn't participate in that 
hearing, I am familiar.
    Mr. Abercrombie. But you understand the concept. Yes. Here 
is the point. As I said, Mr. Farr has a legitimate concern. The 
intent of this legislation and the way it is written is not to 
subsidize in any way, shape, or form commercial enterprise.
    However, in order to gain the cooperation of nations, 
regions, municipalities, areas, organizations, private sector, 
corporations, for that matter--you know, in other words, the 
whole range of social and economic infrastructure that is 
emerging in Asia, which, by definition, clashes with, 
confronts, constricts, restricts--any combination thereof--the 
Asian elephant in what might otherwise be its natural habitat, 
wanderings, existence.
    We have to encourage local entities, regional entities, 
whether they are political or social or economic or some 
combination, to work with us on this, to work with Dr. Sukumar 
and others in the scientific community and in the preservation 
community who might otherwise not have any leverage whatsoever 
to be able to withstand that kind of competition.
    The Asian elephant has always existed, has it not, in a 
context within which its contact with human beings is fairly 
frequent, fairly consistent. Now, in some instances, of course, 
domestication takes place. Right? And we know it takes use in 
logging. That may still have a very efficacious relationship. 
It may be that the Asian elephant will go the way of the draft 
horses of even my youth.
    Draft horses were still used to some degree when I was a 
young boy, but almost by definition at the time of my 
grandfather that use of draft horses had disappeared and they 
became--in order to preserve the draft horses. Are you familiar 
when I say a draft horse--one of the world's most magnificent 
animals?
    They made appearances at county fairs in what you call 
horse-pulling contests, the pulling of weight. I don't know if 
you have ever seen one. It is one of the great sights between 
human beings--I mean, relationships between human beings and 
animals that it is possible to see--a test of strength and 
cooperation and all the rest of it. But they had become 
anachronisms.
    My grandfather was very reluctant to give in to the 
internal combustion engine, and they actually delivered baked 
goods, for example, in Buffalo, New York, by horse-drawn carts 
right up past World War II, and he stayed with it as long as he 
could--stayed with the horses.
    Now, it may be the Asian elephant is going to be in that 
category of I am going to say an artifact, and I don't mean 
that in any kind of pejorative sense or any kind of sense where 
they end up being a statue in a display at the National 
Gallery. But in order to do that, we have got to make sure that 
we can attract the favorable attention of those who are being 
impacted by the clash, if you will, of Asian elephants and 
modernity throughout south Asia.
    I am sorry to have taken so long with this preamble, but I 
hope you see where I am going. I agree entirely with Mr. Farr, 
but we don't want to write legislation in such a way as to 
actually inhibit us being able to attract these other entities 
into supporting our conservation efforts. Is that making sense? 
You have these kinds of--is that the kind of thing you are 
doing now in India?
    Mr. Jones. Mr. Abercrombie, let me turn to Dave Ferguson in 
a moment to talk about some of the things we have done in 
India. But I would say that, in general, we are looking for 
partners who are committed to the same conservation goals that 
you are in the drafting of this bill. And those partners could 
be from the private sector.
    They can be other organizations in the private sector. 
Those can be nongovernmental organizations, and they certainly 
also could be commercial enterprises. But, of course, they have 
got to be committed to the conservation goals that are in the 
bill that you have drafted.
    Mr. Abercrombie. Yes. One of the ways we attracted people 
to help us with the African elephant was because--were hunters. 
They could see if everything worked out right here, perhaps 
they would be able to go back to hunting. Now, not everybody 
was in favor of that.
    But in order to get the broadest possible support--and I 
will state, Mr. Chairman, for the record, I think one of the 
reasons we succeeded and are succeeding where the African 
elephant was concerned is that the originators of the 
legislation with the African elephant were wise enough to see 
that by broadening the base of support that we would have a 
better chance at success.
    Mr. Jones. Mr. Abercrombie, I couldn't agree more. In terms 
of Asian elephants as work animals, you know a lot more about 
draft horses than I do, but I have seen them. They are 
magnificent. Asian elephants----
    Mr. Abercrombie. They are more than just commercials for 
Budweiser. My grandfather was the foreman on an eight-horse 
hitch. That is where you get the word teamster from--teams of 
horses--eight-horse hitch. They delivered the beer.
    Mr. Jones. Mr. Abercrombie, I don't know if elephants have 
ever delivered beer, but they certainly deliver other services, 
and that is an amazing relationship. I suspect that you are 
right over time when you go to countries in Asia where a few 
years ago they may have been doing this; today what you have 
got is a suburb or a city with people all carrying cellular 
phones in their hands. And those are probably not people who 
are thinking of Asian elephants anymore.
    Mr. Saxton. Mr. Farr would like to----
    Mr. Farr. One question.
    Mr. Saxton. One short, final thought.
    Mr. Farr. In your statement, you said none of this money 
would be spent in the United States. Is that correct?
    Mr. Jones. Mr. Chairman, I would not anticipate unless it 
was for some kind of a data base or something else that might 
be here, but our African elephant funds and our rhino and tiger 
funds, those funds are all spent either in the range countries 
or with international organizations that are devoted to 
conservation like the CITES secretariat or the IUCN, and I 
would anticipate the same with the Asian elephant.
    Mr. Farr. So these funds don't trickle down to the zoo 
breeding program?
    Mr. Jones. We have worked with zoos, but those were zoos 
that had programs in the range countries.
    Mr. Farr. So the incident that happened in the Portland Zoo 
where the Asian elephants were bred and have not had a very 
successful life thereafter, this money wouldn't reach entities 
like the Portland Zoo?
    Mr. Jones. Mr. Farr, unfortunately, I don't know enough 
about the Portland Zoo I think to comment on that, but we could 
take a look at that, and I certainly could give you----
    Mr. Farr. Well, they are one of the country's foremost zoos 
in breeding Asian elephants, and there has been a lot of 
problems with it, and that is what I am concerned about. You 
know, I think the best thing you can do is protect the habitat, 
and from then you have got at least rangeland in which 
elephants can survive. Without protecting the habitat, you are 
not going to protect them. Thank you.
    Mr. Saxton. Thank you very much. And I would like to thank 
Mr. Jones and Mr. Ferguson for being with us this morning.
    Mr. Abercrombie. Mr. Chairman?
    Mr. Saxton. Mr. Abercrombie for one quick, final thought.
    Mr. Abercrombie. No, no. I thought we were all working on 
your extended time. I am sorry. I had a couple of questions. 
They are fairly short, and we can submit some questions to you 
as well, I presume. You spoke about your ability to use 
currency that may have accumulated in the Treasury of the 
United States by the United States which stays in-country, and 
you cited India--rupees that from whatever base are under your 
jurisdiction or could be put under your jurisdiction by the 
President or by the Congress.
    Mr. Jones. Yes, sir.
    Mr. Abercrombie. Would you think it would be useful to 
write into this legislation, if it is possible, and I don't 
know--maybe it would take a separate bill--permission to 
transfer or change currency to promote studies, programs, 
support, et cetera, such as you now have in India into the 
currency of other nations in order to do this?
    The reason I say that is is that range doesn't necessarily 
respect borders. Habitat doesn't respect borders that are 
arbitrarily made by human beings. It might even be one day that 
we could get some kind of cooperation from Burma, that kind of 
thing. Would that be useful?
    I don't know if it can even be done in this particular 
legislation, but it would seem to me that it would be useful 
for you to have that kind of ability to be able to change 
currency or transfer currency. I am not even quite sure of the 
phrase I should use.
    Mr. Jones. Mr. Abercrombie, the program we have in India, 
you are right. Those are Indian rupees that are owed to the 
United States. They cannot be turned into dollars. There is a 
large amount of them, and the Department--is it the Treasury, 
Dave?--that has this program, and different agencies a number 
of years ago were able to make proposals for spending of that 
money.
    We got approval and a fund has been dedicated to this. The 
funds are going to run out. They are not endless. We have had 
programs in some other countries, and let me just have Dave say 
a very quick word about other countries that we have worked in, 
but I don't think any of those are Indian or Asian elephant 
range countries. Is that right, Dave?
    Mr. Ferguson. Well, just for clarification, these special 
foreign currencies that we have been discussing--Indian 
rupees--are part of the Public Law 83-480, the Agricultural 
Trade Development Assistance Act, which allows the transfer of 
surplus agricultural products to other countries. They pay for 
them in their local currencies.
    They are kept track of by the Department of Treasury, and 
when they reach a certain amount which is excess to the needs 
of the United States in that particular country, then they 
become available for various purposes which U.S. Federal 
agencies can take advantage of it.
    So the Endangered Species Act of 1973 has a specific phrase 
in it in Section 8[a] which deals with international 
conservation efforts allowing the Secretary of the Interior to 
utilize excess foreign currencies wherever they are available 
for enhancing the status of wildlife, particularly endangered 
species. So using----
    Mr. Abercrombie. Are those funds transferrable from one 
country to another? Because India might generate a lot of 
money, and Thailand may generate not as much or virtually 
nothing.
    Mr. Ferguson. Well, that is true. Over 20 some odd 
countries have come on the list and off the list, but these 
transactions are going on all of the time even now, but there 
are different categories of these funds. And the categories----
    Mr. Abercrombie. Anyways, I appreciate that. I don't want 
to take more time right now, but that is something we could 
usefully look at I think, Mr. Chairman, as a possibility for 
helping to get funding. Thank you, Mr. Ferguson. I didn't mean 
to cut you off, but we are under a little bit of time 
constraint.
    Mr. Saxton. Thank you very much, and thank you, Mr. Jones 
and Mr. Ferguson. And we are going to move on to our second 
panel at this point. It consists of Dr. Terry Maple, President 
and CEO of Zoo Atlanta; Dr. Raman Sukumar of the Center of 
Ecological Science of the Indian Institute of Science; and Dr. 
Eric Dinerstein, the Chief Scientist and Director of the 
Conservation Science Program at the World Wildlife Fund.
    And while these gentlemen are taking their places, I should 
have and neglected to ask unanimous consent that Chairman 
Young's statement be included in the record at the appropriate 
point after the opening statements that were given, and so I do 
so at this point.
    Welcome to three very well-known individuals, Dr. Maple, 
Dr. Sukumar, and Dr. Dinerstein. We are very pleased that you 
are here with us. We are, obviously, interested in your 
testimony and anxious to hear what you have to say this 
morning. So as soon as you are prepared, Dr. Maple, welcome 
back with us again, and the floor is yours.

    STATEMENT OF DR. TERRY MAPLE, PRESIDENT/CEO, ZOO ATLANTA

    Dr. Maple. Well, thank you very much. I might add that in 
addition to my own zoo, Zoo Atlanta, I am speaking today for 
the American Association of Zoos and Aquariums, and on behalf 
of AZA I would like to express my appreciation for the concern 
and interest that Chairman Saxton and this Subcommittee have 
historically shown for the conservation of threatened and 
endangered species. And I would especially like to thank the 
Chairman and Congressman Abercrombie for introducing this bill 
and thanking the Subcommittee members who have co-sponsored it.
    The AZA strongly supports this legislation. The AZA 
represents virtually every professionally operated zoological 
park, aquarium, oceanarium, and wild animal park in North 
America, as well as 6,500 individual members. More than 119 
million people visit the AZA's 180 accredited zoos and 
aquariums each year.
    In 1988, this Subcommittee recognized the serious threat 
the African elephant faced from poaching and loss of habitat by 
strongly supporting the African Elephant Conservation Act. 
While the Act's imposition of a ban on the importation of 
African ivory was important, the establishment of the African 
Elephant Conservation Fund has made the Act critical to the 
survival of the species.
    This fund is the only continuous source of money to assist 
African countries and organizations in their conservation 
efforts to protect and manage elephants. The fund has supported 
over 50 conservation projects in 17 range states to enhance 
habitat protection.
    Regrettably, the Asian elephant is in need of similar help. 
It faces serious threats, not just from ivory poaching, but 
from a greater threat--the loss of habitat due to rapidly 
expanding human populations.
    By creating the Asian Elephant Conservation Act and its 
subsequent fund, the United States will have the opportunity to 
once again demonstrate its leadership and commitment to 
wildlife conservation. The Asian elephant is a flagship species 
for the tropical forests of Asia. Securing its long-term 
viability will, in turn, assist in the conservation of many 
other animals, including tigers, rhinoceros, Asiatic wild dog, 
and others.
    Unlike the African elephant, whose populations range 
between 600,000 to 700,000, the Asian elephant population only 
numbers between 35,000 to 45,000 animals. And this population 
is highly fragmented throughout 13 countries. Only in four 
areas does the population consist of more than 1,000 animals.
    The goals of the Act and its subsequent fund would be the 
following: one, protection of the remaining elephant 
populations and their habitat; the establishment and management 
of specially pro-

tected areas; reduction of captures from the wild, most notably 
in Burma; and promotion of effective community enforcement 
programs.
    This bill would focus on remedies that address human-
elephant conflict resolution. The Act would give support to 
projects that accomplish one or more of the following: directly 
promoting wild elephant management practices; monitoring 
population trends; assessing annual ranging patterns; 
enforcement of CITES; encouraging law enforcement through 
community participation; translocating elephants; and the 
conduct of community outreach and education.
    Today, AZA institutions exhibit 155 Asian elephants. Asian 
and African elephants are magnificent creatures. They are 
difficult to exhibit, manage, and breed. They have complex 
social structures, at times rivaling those of humankind. They 
are extremely intelligent.
    You should know that zoos engage in three types of 
conservation--captive propagation, conservation in range 
countries, and conservation education in our local communities 
and in range countries. An example of the first type is the 
work that the San Diego Zoo and the LA Zoo did to save, breed, 
and reintroduce the California condor.
    As important as it is for our institutions to educate our 
visitors about the life patterns of the Asian elephant, it is 
equally important that resources be made available to protect 
the wild Asian elephant populations in its habitat.
    AZA strongly believes that H.R. 1787 should receive the 
full support of this Committee for the following reasons: it 
will provide competitive financing where it is needed most--in 
the wild to support protection, conservation, and management of 
threatened Asian elephants.
    It is focused and cost effective, yet flexible enough to 
address immediate needs for conservation. It will encourage 
donations from private sources. Many zoos, for example, will 
donate to this program--a fine example of public/private 
partnerships. And funding requests will be based on sound 
science. We thank you for the opportunity to endorse this bill.
    [Statement of Dr. Maple may be found at end of hearing.]
    Mr. Saxton. Dr. Maple, thank you very much. We will move 
now to Dr. Sukumar.

   STATEMENT OF DR. RAMAN SUKUMAR, CHAIRMAN, IUCN/SSC ASIAN 
                   ELEPHANT SPECIALIST GROUP

    Dr. Sukumar. Thank you, Mr. Chairman, for this opportunity 
to speak on behalf of the Asian elephant. The Asian elephant, 
which has shared a special bond with people for over 4,000 
years, now faces an uncertain future. Its total population in 
the wild and in captivity is under 10 percent of that of the 
African elephant.
    Of the estimated wild population of 50,000 elephants, about 
50 percent is found in a single country, India. Other important 
populations are seen in Burma, Indonesia, Sri Lanka, Thailand, 
and Malaysia. Its status is unclear in potentially important 
countries such as Laos, Cambodia, and Vietnam, although it is 
known that elephants are in relatively low numbers. Elephant 
populations in China, Bangladesh, Bhutan, and Nepal are 
relatively insignificant.
    Fewer than 10 populations, six of them in India, have over 
1,000 elephants each, a level I believe is needed to ensure its 
long-term viability. The majority of populations have much 
fewer numbers, often less than 100 or 50 elephants each, which 
are not viable even in the short term.
    There are several causes for the decline of the elephant in 
Asia, and other speakers have mentioned this. The loss and 
fragmentation of habitat due to expansion of cultivation, 
settlement, and developmental projects have squeezed elephant 
populations into small, unviable areas. And this is a process 
that occurs in countries such as Malaysia, Indonesia, India, 
and Sri Lanka.
    The loss of forest to agriculture occurs in a different 
context in northeastern India and countries such as Burma, 
Laos, and Cambodia. Here, slash-and-burn shifting cultivation 
on hill slopes has denuded forest cover considerably.
    The second major cause for the decline of the elephant is 
its capture and killing in large numbers. During the past 
century alone, up to 100,000 elephants have been captured in 
Asia. It is now certain that the extremely low densities and 
numbers of elephants in many southeast Asian countries, 
particularly the Indo-China region, is due to hunting of 
elephants for ivory, meat, skin, and other elephant products.
    Equally, if not more important, is the consumer demand for 
elephant products such as ivory from east Asian nations, in 
particular Japan. A new wave of ivory poaching is sweeping 
through Asia affecting countries such as India. Here, the 
selective poaching of male elephants for tusks has caused 
serious imbalances in the population structures. As the number 
of male elephants declines and sex ratios become unequal, 
genetic variation is lost to the detriment of the population.
    A socioeconomic dimension to the problem of conserving 
elephants is the impact of elephants on humans and their crops 
and property. As habitats become fragmented and elephant 
populations compressed, there is escalation of crop 
depredations and manslaughter by elephants.
    Several hundred people are killed by wild elephants each 
year, often when elephants enter crop fields and settlements at 
night in search of forage. The economic losses to crop damage 
by elephants run into several million dollars annually in Asian 
countries.
    The coming century will decide the ultimate fate of the 
Asian elephant and other creatures on this earth. Fortunately, 
with the elephant, the problems have been well identified and 
solutions available to ensure its survival and long-term 
conservation.
    Basically, I think there are four major aspects to the 
conservation of the elephant, three of which have to do with 
the wild populations and one with captive populations. These 
are maintaining viable, contiguous habitats of high quality 
through setting up of networks of protected areas; two, 
minimizing elephant-human conflicts through appropriate 
measures; three, controlling the poaching of elephants for 
ivory and other products; and, four--and this is important I 
believe because 30 percent of the total population of the Asian 
elephant is found in captivity in Asian countries--we have to 
properly manage the large numbers of captive elephants through 
proper health care, training, and use.
    Although the task is enormous, given the wide geographical 
spread of the species, there is urgent need to consolidate upon 
and expand the scope of various conservation projects being 
carried out on a small scale.
    Over the past two decades, the Asian Elephant Specialist 
Group has been the most active player in elephant conservation 
efforts in Asia. The considerable achievements of the AESG and 
other organizations and institutions have been made with very 
modest funding. The time has come to implement the conservation 
strategies which have evolved over the years, and this calls 
for much higher levels of funding from the international 
community.
    The irony that I personally see in the plight of the Asian 
elephant is that it is arguably the ultimate flagship species 
for conservation of biological and cultural diversity in Asia. 
The elephant is a keystone species in the tropical forests of 
south and southeast Asia, which are biologically one of the 
most diverse regions in the world.
    Conserving the wild elephant would automatically ensure 
that hundreds of thousands of plant and animal species would 
also be conserved in Asian tropical forests. The proper care 
and management of captive elephants in Asia would ensure that 
elements of the rich cultural heritage of this region would be 
preserved. We surely have a responsibility to saving the most 
magnificent of our fellow creatures. Thank you, Mr. Chairman.
    [Statement of Mr. Sukumar may be found at end of hearing.]
    Mr. Saxton. Thank you very much, Dr. Sukumar. Dr. 
Dinerstein.

STATEMENT OF DR. ERIC DINERSTEIN, CHIEF SCIENTIST AND DIRECTOR, 
       CONSERVATION SCIENCE PROGRAM, WORLD WILDLIFE FUND

    Dr. Dinerstein. Thank you very much, Mr. Chairman. I am 
here on behalf of the World Wildlife Fund and its 1.2 million 
members to urge your support for this important legislation to 
help conserve Asian elephants.
    Over the past few months, we have heard a lot about the 
recent CITES meetings and newspaper articles filled about the 
plight of African elephants. And this hearing marks an 
important opportunity to really turn the spotlight on the much 
more endangered species of elephant, the Asian elephant.
    Those of us who are involved in Asian elephant conservation 
wish we had the problems that are faced in Africa where you 
still have over 650,000 individuals, who have large 
populations, and many populations that are more than 1,000 
individuals. There are far fewer elephants in Asia. There are 
far fewer individual populations with more than 1,000 
individuals, and the habitats are much more fragmented.
    We need to address conservation on several different 
fronts. The first thing that we need to do for Asian elephants 
is to undertake an exercise that we have recently done for 
tigers, and I have given the members of the Committee a series 
of maps that we have prepared on the distributions of Asian 
elephants, tigers, and rhinos.
    But we have recently published a book in collaboration with 
the Wildlife Conservation Society that takes the 160 areas 
where tigers occur across Asia and prioritizes them so we 
invest our efforts in the 25 areas that provide the greatest 
chance of conserving tigers for the long term.
    The fact is the same thing applies for elephants. We don't 
have the opportunity to conserve elephants in every place they 
occur. There are places where we are probably going to lose 
elephants over the next few decades. But there are places where 
we have a great chance if we do the right things now and use 
these funds appropriately to be strategic in where we make our 
investments.
    So we need the same sort of application of looking at where 
elephants occur, where we can mitigate poaching effects, and 
where the populations are largest and the best habitat quality 
to try to conserve them.
    And one of the things that you will notice if you look at 
the maps that we have provided for you is that there are many 
areas where elephants occur that are along the borders of 
countries. And this is because this is where some of the most 
intact and most biologically rich forests occur. So an 
important part of elephant conservation is going to be involved 
in transboundary efforts among the countries of Asia.
    We also need to look at other ways to find some solutions 
of having people live in close proximity to elephants. And I am 
proud to report about one solution to this that we are doing 
using U.S. taxpayers' money in the country of Nepal funded 
through a U.S. Aid program in the Biodiversity Conservation 
Network where we are using funds generated from a community 
based ecotourism program where tourists go and ride trained 
elephants to go and observe tigers and rhinos in a park in 
Nepal.
    In the first year of operation, we had 10,500 tourists take 
part in this, and the local communities who are subsistence 
farmers went from earning zero dollars in the first year to 
$280,000, half of which goes back to the national park and the 
other half goes back to supporting local community efforts like 
building schools and health posts.
    We also need to look at legislation that recycles some of 
the revenues generated by national parks back to local people. 
This is the appropriate economic incentive that will make 
people more willing to live next to tigers, rhinos, and 
elephants as their neighbors.
    We also need more appropriate and more effective scientific 
understanding of the dynamics of these populations that Dr. 
Sukumar has talked about, to track them and to understand which 
ones have the greatest viability over the long term.
    We know from our studies of African elephants how vital 
they are in the regeneration and maintenance of biodiversity of 
African tropical forests where in some forests, for example, in 
the Ivory Coast, that elephants disperse the seeds of 30 
percent of all the trees that live in those forests. So we have 
had a long example of co-evolution of elephants and their 
habitat that is vital to maintain.
    We think that it is very important to focus on these issues 
in Asia because we have 50 percent of the world's population 
living in perhaps 13 percent of the land area. And so if we can 
solve some of these problems using Asia as our prototype where 
you have high densities of people living around protected 
areas, this will have broad application to many other places 
around the world where we see burgeoning human populations 
encroaching on nature reserves where you still have a large 
intact megafauna that can come into conflict with local people. 
So solving these issues here is very appropriate.
    I would like to end with a nonscientific anecdote that I 
suppose follows after Mr. Abercrombie's story of the draft 
horses. This is a domesticated elephant story but one that we 
use in our research. For years, I worked with the Smithsonian 
Institution studying rhinoceros and tigers in Nepal, and one 
night we were radio tracking using radio telemetry a 
rhinoceros, a male that was following a female who was in heat.
    And I was doing this sitting on the back of a trained 
elephant, as purchase order by U.S. tax dollars for the 
Smithsonian project, that was trained to capture rhinos and 
capture tigers. We were following along with this elephant and 
following behind rhinos when all of a sudden in the middle of 
this--in the middle of the night at one in the morning the 
elephant stopped in its tracks. And the driver tried to get the 
elephant to go. He kept pushing it behind the ears which is 
their gas pedal, but the elephant refused to budge and the 
rhinos were getting away.
    Finally, the elephant took two steps backward and put its 
trunk down and picked up my databook that I had all the data in 
over the last year on the species and handed it back to me and 
then trotted off behind the rhinos again.
    Well, this is not an unremarkable story. There are many 
instances of this of elephants knowing so many commands, 
knowing how to help us in our research. They have also given us 
the databook in a sense that we know how to conserve Asian 
elephants, and now we have to put the scientific knowledge and 
the conservation will to our purpose to try to conserve these 
magnificent animals. Thank you.
    [Statement of Dr. Dinerstein may be found at end of 
hearing.]
    Mr. Saxton. Thank you very much, Dr. Dinerstein. Mr. 
Abercrombie.
    Mr. Abercrombie. Thank you very much, doctor. I don't think 
any of the draft horses I ever came into contact with would 
have picked up any notes for me. You mostly had to stay out of 
the way when they were working. Can you tell me what efforts 
are being undertaken by--the count that we have right now is 13 
different range states--that is the phrase we are using--that 
is the appropriate phrase, is it not--range states----
    Mr. Dinerstein. Yes.
    Mr. Abercrombie. [continuing] governments to preserve Asian 
elephant habitats? One of the things we are going to run into 
from our colleagues and from their constituents is why should 
we spend this money? What are they doing to help themselves? I 
think you will find Americans are more than willing to get 
their paddle in the water and pull deep if they feel that other 
people are in the canoe with them.
    Dr. Dinerstein. Yes. I think Dr. Sukumar can talk about 
that for India. Let me talk about a few other places. Let me 
give some examples of where some of the range states have 
passed legislation or enacted activities that really are 
considered beyond what we are doing in our own country.
    For example, in the country of Nepal, it just passed 
legislation that requires recycling 50 percent of all the 
revenues generated say from ecotourism or park entry fees back 
to local development. So this is the first time in Asia this 
has been done.
    But I think this is the critical point. If we are going to 
have conservation in Asia in the next 20--30 years, local 
people have to be given incentives to want to live next to 
large, potentially dangerous wildlife.
    Mr. Abercrombie. Let me elaborate on that because we are 
going to submit these questions to you folks for more elaborate 
answers which we are going to need in order to satisfy our 
colleagues' questions and perceptions, and we are under time 
restraint. I appreciate that answer. In other words, it is now 
underway. What we need to do is encourage it. Do you believe 
that if we pass this legislation that will be an encouragement 
to these range state governments to pass similar legislation or 
complementary legislation?
    Dr. Dinerstein. I think so. I think that, you know, for the 
United States to take an active interest in this and to 
identify important directions to go in and to put some money 
where our mouth is on this would go a long ways for us to go 
over and try to advocate new approaches----
    Mr. Abercrombie. We have at least some moral leverage in 
terms of not just simply being imperialist exponents from some 
elitist plane to try and influence domestic policy in these 
countries because we don't want it seen that way. Do you 
believe the way this legislation is drafted that that will get 
through that kind of elitist looking down your nose at other 
people?
    Dr. Dinerstein. I think it will, particularly if it 
includes some language that talks about empowering local 
communities to try to take advantage of the tremendous tourist 
attractions, for example, that wild elephant herds and other 
wildlife species maintain those values across Asia. But I think 
that that really is the trick is that we can come up with ways 
to try to conserve elephants, to try to address issues like 
fragmentation----
    Mr. Abercrombie. Well, in the intent language then of the 
bill or the report accompanying the bill, then we have to 
emphasize that?
    Dr. Dinerstein. I would recommend that.
    Mr. Abercrombie. Perhaps when you respond or others 
respond, if you could emphasize how you think best that this 
can get the message to local entities, local governments, 
communities, et cetera, that were interested in building a 
cooperative base with them legislatively and otherwise. That 
would be good.
    I wanted to ask one other thing, and, Dr. Sukumar, perhaps 
you can answer this as well. Dr. Maple, you may have some 
knowledge of this. Zoos and aquariums across this country, and 
I expect in other countries, in order to attract support, 
favorable attention, and so on have numerous programs in which 
they try to bring people in. I know the Honolulu Zoo even has 
where you stay overnight so that you can see, hear, and 
experience what it is like because lots of animals are 
nocturnal and that kind of thing. So they do things that reach 
out to the community.
    In this particular instance, Dr. Dinerstein, I was 
intrigued by your point about ecotourism. We try to do that in 
Hawaii right now. Obviously, I am searching for a hook or a 
series of hooks that will enable us to attract, again, the 
favorable attention of our colleagues about spending money.
    I think that one of the things that this could do is that 
people would like to ride elephants. I don't think that that 
is--because there is, as Dr. Sukumar has indicated, 30 percent 
of the Asian elephants are domesticated, they are engaged in a 
commercial side, as opposed to abusing them in that category.
    Perhaps with the right kind of program, the idea that 
people could go to various Asian countries and participate as 
ecotourists in that, that doesn't necessarily work against the 
goals of conservation and preservation, does it? And if it 
does, I want you to tell me. My instinct tells me that it does 
not when it is properly managed and controlled and the right 
attitude is put forward.
    Dr. Sukumar. I think, Mr. Abercrombie, you have very 
rightly put it, that we need to involve local communities in 
terms of trying to conserve the species. And I can think of no 
better way of doing this than by actually promoting tourism 
which involves elephants--you know, both viewing elephants and 
riding elephants and so on. And that will be an excellent way 
of actually trying to get some economic benefits to the local 
community which would give them incentives for protecting the 
species.
    Mr. Abercrombie. Is it possible, Dr. Dinerstein, that in 
the context like either the World Wildlife Fund--I mean, your 
bona fides I think are apparent with respect to your commitment 
to preservation and conservation. You do not see the ecotourism 
then, for example, nonshooting safaris, if you will, as 
anything anesthetical to your goals and purposes?
    Dr. Dinerstein. Oh, not at all. I think it is one of the 
most powerful tools that we have to try to link local 
development with long-term conservation.
    Mr. Abercrombie. That also would include then, would it 
not, helping to make an argument to local communities and 
governments for the preservation, even the extension of 
habitat?
    Dr. Dinerstein. Oh, certainly. I mean, in fact, the program 
that we have in Nepal is an example. We have managed to extend 
the buffer zone and restore the habitat where we now have five 
tigers living in a place and 40 rhinos that we didn't have 4 
years ago through these investments.
    Mr. Abercrombie. OK. Thank you very much, Mr. Chairman.
    Mr. Saxton. The gentleman's time has expired. Mr. Farr.
    Mr. Farr. I like the way that last question is going over. 
I read nothing in the bill that puts any of the money into 
that, and I would appreciate it if you want to take a look at 
the bill to suggest some language that might tighten it up. It 
seems to me that the best way to make this work is a 
collaborative effort. You are going to have to preserve the 
habitat of the animal. Preserving that habitat has got to 
preserve the economy of the area.
    There is a nexus. It doesn't mean that it has got to, one, 
stop the erosion or the loss of the habitat, but at the same 
time convert essentially agrarian cultures to a way of doing 
economic development through ecotourism. And we know how to do 
that, but we don't re-

quire at all that any of these moneys be collaborative that 
way. And I think that we ought to tighten that up a little bit, 
that there ought to be a nexus.
    Secondly is I look at these maps that have been placed 
before the Committee which is the Indo-Pacific ecoregions 
overlaid with the distribution of elephants, tigers, and 
rhinos. You really begin seeing--you can get a three-for here. 
It seems to me if you can preserve the habitats of elephants in 
some of these regions, you are also preserving the habitats for 
tigers and the habitats in a very small area for rhinos, 
particularly in Indonesia.
    Is there any effort to try to prioritize a limited amount 
of funds? This is $25 million over 5 years--$5 million a year. 
Is there any attempt to leverage these funds with other efforts 
to preserve those ecoregions as well where you can have a 
multiple effect of preserving habitats?
    Dr. Dinerstein. Yes, you can. I was in a way hoping you 
wouldn't do the spacial overlap in your head and see how much 
there is, but, in fact, I should make a point about these maps. 
These maps certainly reflect the distribution of the species, 
not population densities.
    So you have to be careful in interpreting that in that 
there are some places, for example, where tigers reach 
relatively high densities like parks in Nepal where elephants 
occur at low densities. And there are places where rhinos occur 
and similarly for rhinos.
    So there is a fair amount of overlap, but there are also 
places where you have high populations of tigers and maybe not 
some of the other species. So that's why I think it makes sense 
to keep the funds separate because also----
    Mr. Farr. I wasn't suggesting that they be commingled but--
--
    Dr. Dinerstein. Yes, but certainly in terms of strategic 
planning, yes, there are clearly places. And so if we can get 
in the next year or so an elephant analysis that is similar to 
our tiger analysis--we already know where the rhinos are 
because there are so few populations left.
    That would go a long ways to try to I think be much more 
strategic about addressing concerns for both tigers and 
elephants, which both have some of the same concerns in 
maintaining large blocks of habitat and conactivity among the 
remaining blocks so you can have dispersal and gene flow 
between them.
    Mr. Farr. Is an emphasis placed on buying the habitat?
    Dr. Dinerstein. Well, it is difficult in that in many of 
the countries, either it is going to be state owned or 
privately owned. I think that what we should be focusing on the 
most is to try to maintain the existing wildlife corridors that 
exist between reserves so that elephant populations or tiger 
populations can move between them very easily.
    And that is probably our first goal is to maintain existing 
corridors and then, where appropriate, try to restore them 
because that is really what you are talking about is 
appropriating land and trying to restore them.
    The one advantage that we have in a lot of elephant habitat 
is that elephants like habitats that are early successional, 
that convert very quickly to the natural habitat. You don't 
have to wait--you don't have generations of patience like you 
would to regrow a tropical rain forest. So in one or 2 years, 
you can have tigers, rhinos, and elephants back in places that 
were once rice paddies. So that is very possible--to see 
dramatic results very quickly if you can get the land 
available. That becomes a tricky political issue in many 
countries.
    Mr. Farr. What is the highest priority? What is your 
highest priority?
    Dr. Dinerstein. I would say for elephants right now I would 
say is to try and identify those places of the areas shown in 
brown on here that have elephants in them where we have the 
greatest chance of persistence over the long term right away so 
that the money that would come from this fund goes to places 
where it won't be wasted, where it won't be used in places that 
may not have a long-term future but go to the places where we 
know we can--we think we can protect elephants in perpetuity.
    Mr. Farr. Well, it seems to me we need to tighten that 
language up a little bit to do that. That makes good sense. And 
is that your top one?
    Dr. Dinerstein. Well, certainly, I think that is the top 
one. And then I think in the other places is simply identifying 
priorities is the first step. Then I think proper law 
enforcement. As Dr. Sukumar has written about in his book and 
other Asian elephant experts have testified, that the loss of 
the big male tuskers is a real problem. They are being heavily 
poached. Some of the reserves don't have big male tuskers 
anymore. So I think strict protection from poaching is 
critical, which also benefits the tigers----
    Mr. Farr. My time is up but just one question. Where is the 
best training in the world for wildlife game manager 
enforcement?
    Dr. Dinerstein. Maybe Dave Ferguson or--there are a number 
of places that do that. I think in India itself, the Wildlife 
Institute of India has an excellent program that Dave 
Ferguson's program has supported for many years that involves 
issues of law enforcement and management of parks. So, 
certainly, for the region, that is an appropriate place to be 
looking.
    Mr. Farr. Thank you. Mr. Chairman, I hope sometime we can 
focus on--you know, whenever we have a NAFTA debate or any kind 
of trade debate, it is always the environmental side. It comes 
down to the countries have good laws but inappropriate 
enforcement. It seems to me that this Committee needs to devote 
a hearing to enforcement efforts around the world, where they 
are weak and strong and good and bad and see if we can start 
using some limited resources to enhance midlevel training.
    I am a Peace Corps volunteer, and I found that midlevel 
technical training--they are hungry for it and the ability to 
facilitate it--get people to the countries and places that do 
it. I think America does it very well in almost every area of 
education. That we undersell and pay too little of attention to 
that is the next step of sort of economic training that needs 
to be done in the world.
    Mr. Saxton. Thank you very much, Mr. Farr. Let me ask one 
final question, if I may. One of the things that we have 
learned in dealing with species such as the Asian elephant, 
African elephant, rhinos, tigers, et cetera, is that along with 
habitat protection one of the major issues that we need to 
address is the economic incentive to--which dissuades people 
from conservation measures. With regard to the Asian elephant, 
can you talk about those economic incentives? And please 
concentrate in particular on the traditional Chinese medicine 
issue which I understand causes a great deal of concern. Anyone 
who wishes to----
    Dr. Sukumar. Well, I don't think the parks of Asian 
elephants are really involved in Chinese medicine. I know that 
tiger parks are involved but not elephant. I don't think 
elephant is really used in Chinese medicine.
    Dr. Dinerstein. Nowhere near the extent that rhinos or 
tigers are. We are not facing that. It is really the ivory 
threat.
    Dr. Sukumar. It is really ivory--the underskin to a certain 
extent, yes.
    Mr. Saxton. Are there other economic incentives to hunt or 
kill Asian elephants?
    Dr. Sukumar. Apart from ivory and skin, no. I mean, that 
is, of course, killing of elephants for meat, there are certain 
tribes in northeast India and southeast Asia who eat elephant 
meat, but that is the other incentive for killing elephants.
    Mr. Saxton. So this is not, in the vernacular, a big deal--
--
    Dr. Sukumar. Yes.
    Mr. Saxton. [continuing] in the big scheme of things? OK. 
Well, thank you very much. We appreciate all of your testimony 
and thank you for sharing with us your perspectives. Mr. 
Abercrombie?
    Mr. Abercrombie. Mr. Chairman, I mentioned during the 
course of the testimony for both panels and I think for those 
who have consulted with us and given us their testimony 
previously, could I ask that some of the questions put forward 
to us in our background material and perhaps some other 
questions be put to the witnesses in the hopes that the answers 
we get back will help us write the legislation more 
comprehensively?
    Mr. Saxton. That is an excellent suggestion. If staff will 
forward on the appropriate questions which are in our packet, 
then we will ask you if you will submit some answers in writing 
to us. Thank you very much. We are going to move to panel 
number 3; Dr. Michael Stuwe, Research Associate of the 
Smithsonian Institute; Dr. Mary Pearl, Executive Director of 
the Wildlife Preservation Trust International; and the 
Honorable former member of this House, Andy Ireland, Senior 
Vice President of Feld Entertainment, Inc. Please take your 
places. We are anxious to hear your perspectives as well. And, 
Dr. Stuwe, when you are comfortable in your place and 
sufficiently organized, you may begin.

      STATEMENT OF DR. MICHAEL STUWE, RESEARCH ASSOCIATE, 
    CONSERVATION AND RESEARCH CENTER, SMITHSONIAN INSTITUTE

    Dr. Stuwe. Yes. I am comfortable. And first of all, I guess 
I have to say that I am a research associate with the 
Smithsonian, but they told me as I am not a permanent employee, 
I cannot speak for them officially. So I would like for you to 
take this testimony as testimony of a scientist who works in 
Asia on Asian elephants.
    Mr. Saxton. Very well. Thank you very much.
    Dr. Stuwe. But still this morning when I came in, I went to 
the Natural History Museum, first of all, before it opened up. 
I went into the big entrance hall, and I looked at the elephant 
there--that monster of an elephant standing there with nobody 
else in that big hall. And I realized going to this meeting 
that that is what we have to do, we have to protect the 
elephant.
    Mr. Saxton. Doctor, I wonder if you might pull the 
microphone a little closer.
    Dr. Stuwe. When I was walking around the elephant there all 
by myself, hearing my footsteps, thoughts went through my mind 
from a few weeks ago when I went out with the Malaysian 
Wildlife Department to capture elephants--capture elephants in 
the plantations, in the crop fields in southern Malaysia, and 
translocate them up into national parks. And for days and days 
without end, we were visiting homesteads and farms and 
plantations that just the night before had been completely 
destroyed by elephants.
    So in my statement here instead of repeating much of the 
data on elephants that we have heard already, which is already 
in the public record, I want to concentrate on two items that I 
think are most important. And the most important item I think 
is the human-elephant conflict.
    It is what we see as a magnificent species over here that 
needs protection, and the little landowner over there in 
Malaysia or the other countries whose crops get raided season 
after season, whose livelihood is destroyed season after season 
may not see as a magnificent species.
    So that is I think where we have to start. That is where we 
have to find the solution, and that is where a lot of the funds 
should be allocated onsite right there where it happens every 
night when the elephants and man get in conflict with each 
other. And, obviously, as the human populations grow as all of 
Malaysia is being developed, the forests are shrinking.
    And in addition to that, we humans--we provide the 
elephants with restaurants. We provide them with plants that 
are juicy, that are sweet, that are everything that we like to 
eat, and they like it too. So not only do we displace them, 
instead, we are actually pulling them in many cases into these 
areas to feed on our crops which adds to the problem of solving 
the whole issue.
    The second point I wanted to make, and it has been 
discussed quite a bit already, is the question of the 
domestication of the work elephants out there. A quarter of the 
population may be in captivity. These guys are not contributing 
to reproduction. They are almost completely lost to the gene 
pool of the Asian elephant population.
    But still there are those animals that are under our direct 
control. They are held by us. So if we can make these guys 
breed, if we can have them reproduce and become active members 
of the Asian elephant gene pool, we can control one-quarter of 
their gene pool.
    We were invited 2 weeks ago by the Royal Forest Department 
in Thailand, for example, to help them reintroduce unemployed 
work elephants. The Thai timber industry is going down the 
drain as all the value cash timber has been logged out. There 
were thousands of work elephants employed. These guys are now 
unemployed. Their owners can no longer maintain them. So what 
to do?
    The first instances have been in the newspapers that 
elephants are sold to slaughterhouses and slaughtered for meat. 
Bangkok is full of elephants bagging in front of the big malls, 
the big supermarkets--a horrible life in that congested 
traffic. Other elephants are let loose by their owners. They 
start raiding the crop fields over there and cause destruction 
and loss of life.
    So here is another big area where we can actually work on 
thousands of elephants and try and find solutions on how to 
integrate those guys back into the wild, into the pool of 
elephants. Thank you.
    [Statement of Mr. Stuwe may be found at end of hearing.]
    Mr. Saxton. Thank you very much; very interesting. Dr. 
Pearl.

   STATEMENT OF DR. MARY PEARL, EXECUTIVE DIRECTOR, WILDLIFE 
                PRESERVATION TRUST INTERNATIONAL

    Dr. Pearl. In your letter inviting me to speak, Congressman 
Saxton, you asked me my assessment of the Asian Elephant 
Conservation Act. You asked whether I think the authorization 
level is appropriate, the types of conservation projects that 
are likely to need Federal support, and what other steps could 
be taken to help save elephants. I would like to comment 
briefly on each of your queries.
    First, my assessment. I think the Act may be key to the 
survival of Asian elephants. As you have heard earlier, the 
population is down to 50,000 animals, and what is worse, it is 
isolated in small pockets spread all the way from India to 
Indonesia. And because the hunting for tusks is limited to 
males, because in Asia it is only the males that have the 
tusks, in some areas the ratio of males to females has been 
reduced to 1 to 100.
    In such circumstances, it is virtually impossible for all 
potential mothers to mate. Even in the best of circumstances, 
elephants typically only produce an offspring every 4 to 6 
years. Thus, elephant populations will be extremely slow to 
recover from a steep decline.
    Moreover, as you have heard, up to one-third of the 
population is in captivity, mostly in logging camps. The share 
of captive animals is growing. As more natural habitat is 
converted into agricultural lands, the resident elephants 
suddenly become ``agricultural pests,'' and they are taken into 
captivity.
    As Michael said, the productivity and health of this 
worldwide captive population is important for the future of the 
species. Yet, the captive care in many places falls short of 
minimum standards for humane care. Successful captive breeding 
must take place, but it cannot in unhealthy circumstances.
    It will be necessary to take the hunting for capture 
pressure off of remaining wild elephants by mobilizing this 
captive potential. It is clear that active intervention is 
necessary, both in elephant camps and in the wild to halt the 
steep decline in elephant numbers.
    Now, regarding your second query, I think that the 
authorization level is appropriate to American interests and 
values and to the capacity of field researchers and 
conservationists to respond. In America, elephants are the 
backbone of zoos and circuses.
    In Asia, beyond the elephant's essential role in Buddhism 
and Hinduism, the continued economic viability of sustainable 
tropical timber harvesting depends on the maintenance of 
captive elephant populations in some rural areas. In Burma, for 
example, an elephant work force of 3,000 is used to manage the 
logging industry.
    But elephants are critically important not only culturally 
and economically, but also economically indirectly through 
their ecological role. They maintain the habitat that other 
wildlife needs. A host of plants and animals depend on the 
elephant in its role as the architect of the forest, creating 
clearings in which they can also live and grow. These healthy 
ecosystems are the basis of local human health and prosperity.
    I would now like to outline some specific projects that 
must be undertaken to protect elephants, which could be 
supported under H.R. 1787. Despite the low numbers and the 
troubles they face, they are not doomed to extinction. The 
situation is urgent, which is very different from hopeless. We 
know what we must do to stabilize the population. We must 
locate and identify all remaining significant local populations 
of elephants and determine their minimum critical habitat 
requirements.
    We must make plans to translocate isolated elephants to 
places where they can become part of an effective reproducing 
local population. We must resolve conflicts where elephants are 
ruining people's livelihoods in such a way that both people and 
elephants have viable futures. We must devise ways to better 
manage captive populations so that they are self-sustaining, 
humanely cared for, and a source of replenishment for remaining 
wild herds.
    At my organization, Wildlife Preservation Trust 
International, we have, in fact, begun this work in partnership 
with the Asian Elephant Conservation Centre in India, thanks to 
the generosity of our members and various private foundations. 
And we are also fortunate that throughout the elephant range 
states, there are competent and committed scientists and 
wildlife managers ready and willing to work with us to reverse 
the decline in elephants.
    However, the urgency of our mission is such that we cannot 
accomplish what we need to on private support alone, and that 
is why H.R. 1787 is so important. Rather than throwing money at 
the problem, this legislation would direct a modest amount that 
would bring ongoing efforts up to the needed level of intensity 
and accomplishment.
    In other words, the proposed U.S. contribution to Asian 
elephant conservation represents leverage appropriate to 
American interests and values which will result, in fact, in 
far greater expenditures of funds and effort at the local level 
within elephant range countries.
    So to conclude, the Asian Elephant Conservation Act is 
important for the future of a species of aesthetic and economic 
value to Americans. The tasks before us are clear. We have the 
people in place to make a difference with relatively modest 
expenditures. Thank you.
    [Statement of Dr. Pearl may be found at end of hearing.]
    Mr. Saxton. Mr. Ireland.

    STATEMENT OF ANDY IRELAND, SENIOR VICE PRESIDENT, FELD 
                      ENTERTAINMENT, INC.

    Mr. Ireland. Thank you, Mr. Chairman. I have submitted a 
statement, and I would ask your indulgence to put----
    Mr. Abercrombie. Excuse me, Mr. Ireland. To think I was 
just moments from being able to jump in there and introduce you 
myself, but decorum has been preserved.
    Mr. Ireland. I appreciate that. Mr. Chairman, I represent 
Feld Entertainment, Incorporated, one of the world's largest 
and most prominent producers of live family entertainment. 
While you may not be immediately familiar with the name of the 
company, I am sure more than a few of the people here today 
will have seen one of our shows. These include Ringling Bros. 
and Barnum & Bailey Circus, Walt Disney's World on Ice, and the 
Las Vegas illusionists Siegfried & Roy.
    Four years ago when I retired from Congress, I had the 
opportunity to run away and join the circus, not just any 
circus, but literally the greatest show on earth. Needless to 
say, it is a role I found myself eminently qualified for given 
my 16 years here in these hallowed halls.
    More seriously, the reason we are here today is because all 
of us in this room and those testifying before you today have a 
tremendous love and respect for one of nature's most amazing 
animals, the Asian elephant. The Asian elephant has long been 
an integral part of the circus experience and is among one of 
our most beloved and popular animals.
    America's relationship with the Asian elephant began over 
200 years ago when the first Asian elephant came to this 
country as part of a traveling exhibition. This has continued 
through 127 years of history at Ringling Bros. and Barnum & 
Bailey alone.
    As the plight of the Asian elephant became more pronounced, 
we at Feld Entertainment realized that we had a responsibility 
to help protect the species, and that we were in a perfect 
position to make such a contribution. As you know, and has been 
said here by numerous speakers, roughly one-third of the 
world's Asian elephant population, nearly 16,000, are 
domesticated. While the vast majority reside in camps 
throughout southeast Asia, we at Ringling Bros. maintain the 
largest herd in the United States and the most diverse gene 
pool.
    Our commitment to conservation of the Asian elephant is 
based on three goals: education and the accumulation of 
valuable scientific information from a successful captive 
breeding program and habitat conservation.
    Let me explain how we look at this. As the largest 
traveling exhibition in North America, over 10 million children 
of all ages attended Ringling Bros. performance each year. We 
long ago realized that we have a tremendous opportunity not 
only to entertain but to educate our patrons, many of whom are 
young children. I am sure that many of you in this room can 
remember the first time you saw an elephant, a lion, and a 
tiger, and the chances are pretty good that was in a circus 
somewhere.
    The impact of live exhibition, especially in an 
entertainment setting, is tremendous. Common sense dictates and 
numerous scientific studies have proven the long-term 
effectiveness of live display and entertainment in both 
educating and raising the public's awareness of the needs, 
abilities, and, most importantly, of our responsibility to 
endangered animals.
    In a nutshell, we are well-positioned to educate the 
public, and we go to great lengths to get the message out. In 
addition to the educational benefits of public exhibition, Feld 
Entertainment has made a substantial investment in the future 
of the Asian elephant through the creation of the Center for 
Elephant Conservation based in Florida.
    The center is a 200 acre state-of-the-art facility 
dedicated to the breeding, conservation, and scientific study 
of Asian elephants. To date, nine calves have been born under 
this program, the most recent addition arriving just last month 
and weighing in at something over 200 pounds.
    Having found ways we could contribute to the conservation 
of the species in our own backyard through education and 
successful scientific breeding, we at Feld Entertainment began 
to look for the element that would make our role complete; that 
is, the protection of the species in the wild.
    Perhaps the greatest challenge facing the future of Asian 
elephants in the wild is that of habitat preservation, and that 
is what brings us here today. Dr. Sukumar and others, Mary 
Pearl and Dr. Maple, have described this problem in detail. I 
would simply recommend to you that the Asian Elephant 
Conservation Act is the solution to this critical problem; the 
piece of the puzzle that completes the picture.
    The Federal Government, by helping to identify and provide 
seed funds for grassroots habitat conservation projects, will 
provide the vehicle through which conservation-minded 
organizations such as Feld Entertainment and others here today 
can make to them in a meaningful contribution to save the Asian 
elephant. Thank you.
    [Statement of Mr. Ireland may be found at end of hearing.]
    Mr. Saxton. Thank you all very much for your comments, and 
perhaps we will do this a little bit differently. The gentleman 
from California.
    Mr. Farr. I would just like to ask--thank you for coming, 
and it is always a pleasure to have a distinguished former 
member back in the building. I am interested and one of the 
priorities you said was habitat conservation as the Feld 
Entertainment's priorities. Is that the reason why you are 
supporting this legislation?
    Mr. Ireland. Yes.
    Mr. Farr. Because as we heard earlier, none of the money 
would be spent here in the United States for domestic breeding 
programs or for all the other----
    Mr. Ireland. Absolutely. The intention of this is in no way 
for any funds to go to something in the United States. Speaking 
for Feld, we expect to be a contributor of funds, not only hard 
cash funds, but in other ways. First of all, we contribute by 
raising the awareness educationwise that there is a problem out 
here--in the United States, our own money, our own efforts in 
our program books and other things.
    We think that the $7 or $8 million that we spend and have 
spent on this facility in Florida to breed these elephants and 
the quite substantial funds for their care and maintenance each 
year is a contribution we make to saving the Asian elephant in 
the wild simply because the scientific knowledge that we 
generate we make available to anybody that wants it.
    And, as a matter of fact, I was just recently with Dr. 
Sukumar in India with the idea of finding out how we can 
transfer any knowledge that we have. Others have made the point 
that this one-third of the elephant population that is domestic 
can in many ways, beyond the breeding that Michael Stuwe talked 
about and others, make a contribution to saving the wild 
things. These two things are things that we have done 
ourselves.
    When we educate people about the circus, they come to us 
and they want to do something. They want to participate, and 
other organizations want to participate. And the leverage comes 
from the Federal Government seeding the program and making it 
possible for people to know where to put their funds and their 
effort. Nothing in this thing would ever go to anything that we 
do.
    Mr. Farr. Well, I appreciate that because I agree that we 
ought to be participating with both private and public sectors 
to enhance the reproduction of endangered and threatened 
species. And I think we do that best by preserving the habitat. 
I think you can't do it just by captivity. I don't think that 
we want to just learn about animals from visiting zoos and 
circuses.
    And I am very much opposed, I think particularly for 
elephants, of the commercial use and transportation of 
elephants. I don't agree with the circus's need to have 
traveling elephants. I think if you want to--you bring people 
to where the elephants are.
    You don't take the elephants to where--you know, they 
weren't intended to be on earth to be transported on trains and 
trucks and so on. But that is my own personal feeling, but I do 
appreciate your comment about putting private sector money into 
habitat conservation, and I applaud you for that.
    Mr. Saxton. Just let me comment on the gentleman's time or 
my own, whichever. If it were not for Ringling Bros., Feld 
Entertainment, and Andy Ireland, we probably wouldn't be here 
today. This effort started when Andy Ireland came to visit Neil 
Abercrombie and Jim Saxton and Harry Burroughs 6 or 8 months 
ago. And the effort that he has put into getting us here today 
has been phenomenal.
    And I have not been able to uncover or see a single thing 
here that economically benefits the circus or Feld, and I 
appreciate that. I mean, we are looking to form partnerships 
with those in private enterprise who can help to multiple 
whatever moneys we may end up appropriating and leverage those 
moneys. And I, for one, am most appreciative of the effort that 
former Congressman Ireland and his associates have brought to 
this effort. Mr. Abercrombie.
    Mr. Abercrombie. Dr. Stuwe, I would like to know, and 
perhaps, Dr. Pearl, you have expertise in this as well--I would 
like to know what basis do you have for believing, if I 
understood you correctly, that domesticated elephants could be 
reintegrated with wild elephants in terms of expanding the 
genetic pool?
    Did I understand you both correctly that because of the 
domesticated elephant situation--I mean, this is what we are 
dealing--the real world is is that a large proportion of the 
existing Asian elephants are in a domesticated state.
    The testimony has been that as a result of something I 
mentioned earlier in my commentary and questions, that is, the 
clash between human beings and Asian elephants in the 
contemporary Asian world, that the domesticated part of it may 
be historically at an end or approaching an end--the 
traditional uses as a result of domestication. Now, is there 
any studies or activities which have already proven that this 
can happen, or is this just a supposition or a proposal or 
what?
    Dr. Pearl. I guess we can both answer, but it may surprise 
you to know that the captive/wild division isn't as clear-cut 
as you might think. In many well-run elephant camps, females 
are released at night to go into forests where they mate with 
wild bulls, and in this way genes are exchanged between the 
wild and the domestic population.
    Mr. Abercrombie. So this is, I take it, random activity for 
the time being?
    Dr. Pearl. Oh, I am sure the females chose the healthiest 
males; it's not random.
    Mr. Abercrombie. I wasn't referring to individual romance, 
but I meant in terms of, in other words, those who may have 
used domestic elephants, obviously, want to have little 
elephants to come along too probably. But that may not be the 
case, but what I am interested in is is this the case then that 
this would not be a difficulty? If we were able to start a 
program which would be gradually--is the ideal--let me start 
over again. Is the idea, Dr. Stuwe, from what you said that 
eventually many of the domesticated elephants would be 
reintegrated into natural habitat and reintegrated into 
families, tribes, groups which currently exist in the wild?
    Dr. Stuwe. If it is at all possible. It is an extremely 
tricky problem that we are facing here. The study that I 
mentioned to which we contribute in Thailand is selecting an 
area that had elephants previously and due to poaching or 
whatever happened that captures this elephant is now completely 
empty of elephants. It is suited for them.
    And the Queen of Thailand has just purchased three former 
work elephants who had become unemployed whose owners could no 
longer maintain them, and we are now trying to see what happens 
if they are integrated back into the wild.
    Mr. Abercrombie. So this is the kind of thing then that 
perhaps if this legislation passes and we are able to get 
funding that we could experiment with. We don't necessarily 
know the outcome.
    Dr. Stuwe. Right, exactly.
    Mr. Abercrombie. That is the answer. Is that correct?
    Dr. Stuwe. Through research find out does it work, does it 
not work. If it works, hey, we may have a solution to 
repopulate empty areas. That is exactly right.
    Mr. Abercrombie. Then I am also taking from this testimony 
that you have given that we may need to find or help to promote 
habitat in which domesticated Asian elephants may be introduced 
into that--introduced as groups. Is it possible? Are those 
domesticated elephants in any kind of groups, or have they been 
isolated and individualized?
    Dr. Stuwe. Right. Those are extremely important questions. 
The one question that you just asked, the important thing is is 
there still a social structure within that group of work 
elephants that we can release together, or do we first have to 
try and form a new social group and train them for release into 
the wild.
    Imagine these guys don't have any fear of humans. They 
possibly look for humans. They look for crop fields. And the 
first thing they do, they start raiding them. So you are 
creating problems rather than solving them. So there is a big 
research effort that has to go in how can I pretrain work 
elephants for release into the wild to then integrate in 
social----
    Mr. Abercrombie. OK. I won't go further with this right now 
other than to say, Mr. Chairman, obviously, I am coming at this 
as a layperson, but I am trying to immerse myself in it as much 
as I can. One of the things I have concluded is is that we have 
to be very much concerned about the domesticated population and 
what will transpire with that. I have no answers, obviously. 
Now, I have all questions at this stage. But I do believe that 
that is something we are going to have to concentrate on in the 
future.
    My guess is is that the role for domesticated Asian 
elephants will diminish relatively rapidly--the social role 
that they now play, the economic role they now play--and that, 
therefore, we will have to work, provided we can get the 
legislation on the books in the first place, to see what we do 
with that population in the various regional and habitat 
context that they face as manifested on these maps that have 
been given to us. So that may be a big program.
    Dr. Stuwe. If I may add, even though it is red, one more 
quick item exactly related to that problem. Right now the 
Burmese timber industry is the most active. Most of the 
elephants are actually employed there and working. But we have 
access to trained work elephants, both in Indonesia, where they 
are caught from the wild and put into camps which someone may 
describe even as elephant concentration camps, or the Thai 
elephants who have lost employment.
    So here we are potentially talking about the option of 
shipping elephants between countries from unemployment 
situations into employment situations. That may have an impact 
on the interpretation of CITES. Are these elephants allowed to 
be shipped across to be employed in commercial activities 
there?
    Dr. Pearl. We also have the option of converting the 
elephants trained to work in logging to working in ecotourism, 
as was discussed earlier, as another potential----
    Mr. Abercrombie. This is the last point on that. With the 
lumber, the eventual purchaser of the lumber, finished and 
otherwise, is the West, is it not--mostly in the West?
    Dr. Stuwe. Japan.
    Dr. Pearl. Japan.
    Mr. Abercrombie. OK--same thing.
    Mr. Saxton. Thank you very much, Neil. And, Dr. Stuwe and 
Dr. Pearl and Andy, thank you very much for the very important 
job that you have assisted with here and your efforts have been 
greatly appreciated. You were instrumental in helping us to get 
the bill introduced. You have been instrumental in helping us 
to understand why it needed to be introduced and the subject 
areas that are all related to it. And we appreciate your input 
very much.
    I would just like to say in closing, I don't know whether 
it was Neil or Mr. Farr that was talking so much about tourism 
and how interesting it is to see how various forms of wildlife 
draw tourists, and I can't help but think of the many tourists 
that come to this town because we have not one zoo but two.
    Mr. Abercrombie. Mr. Chairman, on that note, if I could 
just have a moment's more indulgence, I do want to finish this 
question. I don't want to forget it. Has there been any 
interest in Japan then in helping with this issue? And if there 
has not been, are there societies or groups or perhaps branches 
of the Preservation Trust Fund or wildlife funds in Japan?
    The reason I bring that up is is I am very concerned in 
trying to draw other countries in to help us with this, that if 
we are the recipients particularly of finished products that 
come out of, you know, logging and other things that take 
place, then those countries that are the recipients of that 
should be concerned about what happens with the Asian elephant. 
And we would have a legitimate basis for asking them to help 
us--may become associated. Are they presently involved at all? 
Do any of you know?
    Dr. Pearl. Well, sure. JICA, Japan's overseas agency, has 
funded education centers and help for material assistance in 
the wildlife departments.
    Mr. Abercrombie. Is that a government entity?
    Dr. Pearl. Yes, it is. It is the equivalent of U.S. Aid.
    Mr. Abercrombie. So there is an institutional framework 
available in Japan and perhaps other nations with which we 
could coordinate--which the Department of Interior could 
coordinate?
    Dr. Pearl. Yes. We are leaving my area of expertise, which 
is in science. But from working in the field, I see that there 
are some forms of assistance----
    Mr. Abercrombie. Just as long as we have an entree point is 
what I am asking.
    Dr. Pearl. Well, I would like to make another brief point. 
Five million dollars a year really is dwarfed by the amount of 
money already being spent by the Malaysian Government, the 
Indian Government, and the Indonesian Government. They are 
having to compensate farmers for damage elephants do to crops. 
They are paying costs of translocations. They are underwriting 
some research. So I think the money that would come through 
this legislation is very strategic funding for the scientific 
research needed and to get some model programs going that would 
leverage further activity in the----
    Mr. Abercrombie. I understand. I quite understand. The 
reason I asked the question and begged the indulgence of the 
Chair just a moment longer was it is important for us to be 
able to make clear to our colleagues that we are not pioneers 
out on the point on this, but rather we would be working on an 
international basis with others who are interested, including 
indigenous governments and peoples, and that we could provide 
then a strategic contribution.
    Dr. Pearl. Yes.
    Mr. Abercrombie. Thank you.
    Dr. Pearl. And European sources.
    Mr. Ireland. Mr. Chairman and Congressman Abercrombie, if I 
could add to that, we play a number of our shows in Japan. We 
have had one of our circuses in Japan. The Asian elephant is 
revered in Japan, as elsewhere in Asia. The strength of the 
children interest is there, just like America.
    The companies that we do business as we put on ice shows 
and other entertainment there are companies that would 
certainly be interested, we would say, in the leverage factor 
of this legislation--a key part of this leverage was the word 
that Mary Pearl used. That is the catalyst to getting the 
private sector in there and bringing it up to speed. Japan is, 
in my judgment, a good candidate for the private sector help.
    Mr. Saxton. Thank you very much, Andy. Mr. Farr I believe 
has one final, short closing thought.
    Mr. Farr. Yes. In closing, you are to be commended for 
having this hearing at a time when we are discussing the 
foreign ops appropriation. I mean, you find, you know, a big 
debate on whether we ought to insure American businesses going 
abroad.
    I think that what we are talking about here is essentially 
a global economy where you pointed out that people come to this 
town to watch the zoos, and I would submit that there is 
probably one of them here that is of the two that you were 
referring to that is more humane than the other. And we are not 
sitting in the one that is the most humane.
    But Megatrends pointed out that the biggest growth in 
American ecotourism is watchable wildlife. There are more 
people looking at wildlife in America than all of the 
professional sports. And if you think what commercialization 
there is for that that we are really investing in our future in 
an economic sense, not just in preserving, you know, the 
environment.
    And it makes smart economics, and it is a time when 
everybody is going to criticize the fact of what is Congress 
doing putting $5 million into Asian elephants somewhere else. 
And I think that we need to defend that, that that is just as 
important as backing up American businesses that are going 
overseas.
    So I appreciate all of the effort today. We saw, you know, 
nonprofits and government and for-profit companies all standing 
in unison. And when we get criticized, I hope you will respond 
equally particularly from the private sector that this is a 
worthwhile use of taxpayer dollars. Thank you, Mr. Chairman.
    Mr. Saxton. Thank you very much and thank all of you very 
much. This hearing is adjourned.
    [Statement of Wildlife Institute of India may be found at 
end of hearing.]
    [Whereupon, at 11:55 p.m., the Subcommittee was adjourned.]
 Statement of Marshall P. Jones, Assistant Director for International 
  Affairs, U.S. Fish and Wildlife Service, Department of the Interior

    Thank you, Mr. Chairman, for giving me the opportunity to 
provide the U.S. Fish and Wildlife Service's assessment of H.R. 
1787, The Asian Elephant Conservation Act of 1997. On behalf of 
the Administration, the Service fully supports the enactment of 
this legislation and congratulates the Congress on its 
foresight in recognizing and addressing the plight of the Asian 
elephant.
    Briefly, I would like to discuss the needs of the Asian 
elephant and the ability of the Service to handle 
implementation of the Act and to administer the Asian Elephant 
Conservation Fund. In addition, I would like to provide 
information on the capabilities and commitment of Asian 
countries to protect this species and their habitat, as well as 
what additional steps could be taken to support the 
implementation of the Act.
    From the first appearance of a fairly small tapir like 
mammal in what is now Egypt 45 million years ago, elephants 
evolved a number of species which at one time inhabited nearly 
every continent. By the end of the Pleistocene glaciation about 
10,000 years ago, however, only two species survived--the Asian 
elephant (Elephas maximus) and the African elephant (Loxodonta 
africana). As the largest land animals and as the ultimate 
symbols of power, elephants have always been viewed by humans 
with a mixture of awe and fear, commanding respect by their 
great size but also being viewed as a dangerous and sometimes 
difficult neighbor.
    However, elephants also have other, more intangible values. 
In Asian cultures in particular, people have embraced the Asian 
elephant as a treasured partner in life, deified and venerated 
it into their culture and religion, trained it for hunting and 
war, and bonded with it at the most basic level. Today, the 
Asian elephant is also a keystone species for the preservation 
of biological diversity, since habitats which support wild 
elephants also provide a home for a vast array of other 
species, large and small, and thus also is a magnet for 
ecotourism.
    Nevertheless, despite these acknowledged values, the Asian 
elephant also suffers from a series of paradoxes. Because it is 
the elephant species usually seen in zoos and circuses, with 
more than 16,000 animals in captivity, it may be more familiar 
to the average American citizen. Yet its status is generally 
less well known by the media and the general public than that 
of its larger cousin in Africa. With all of the publicity about 
the decline of the African elephant, they are still more than 
ten times more numerous than the Asian species, which now 
numbers only 35,000 to 45,000 animals. The story of the 
dramatic decline of the African elephant, primarily from large 
scale poaching is well known. The dramatic decline of Asian 
elephant numbers due to the ever increasing population of the 
Asian continent is relatively undocumented.
    The Asian elephant must share its habitat with some of the 
largest and poorest human populations in the world. The 
combination of pressures on the environment brought on by these 
conditions has resulted in the conversion of forest cover to 
agriculture and villages, fragmenting elephant habitat and 
populations. It is believed that today there are only about ten 
populations with over 1000 elephants, with half these located 
in India. The majority of remaining populations are small, with 
less than 100 elephants each and some with lone bulls.
    The dynamics of human population growth have inevitably led 
to increasing conflicts between humans and elephants. This is 
not a new phenomenon, but as the competition for the same 
resources grow, people's tolerance for elephants has dropped. 
Asian peoples have captured elephants for almost 5,000 years 
for training for work-associated tasks, religious ceremonies, 
and war. Where people once revered the elephant and tolerated 
the occasional crop raiding and destruction, now they are 
striking back, unfortunately often with lethal results.
    Unlike African elephants, Asian elephants have not 
traditionally been threatened by poaching for the ivory trade, 
perhaps because females are tuskless and only 60 percent of the 
males carry tusks. However, recent trends since 1994 indicate 
that poaching for ivory, as well as for meat, is on the 
upswing, especially in southern India. The proportion of sub-
adult and adult tuskers in various populations over the last 20 
years has dropped dramatically, in some areas by as much as 75 
percent. In one outstanding example, investigations in 1994 
revealed that out of 1000 elephants in Periyar Tiger Reserve, 
one of the strongholds for elephants in India, only five adult 
males were left. Even among these, only two were tuskers. This 
preferential decrease in the number of tuskers indicates 
increased poaching pressure for their ivory.
    The implications of this marked sexual disparity have yet 
to be assessed. But it is obvious that it will result in 
changes in population structures, not only among adults but 
among sub-adults and juveniles. A drastic reduction in 
fertility has al-

ready been seen which will affect the long term demographic 
structure of this population. Similar effects have been well 
documented in African elephants which have been subject to 
heavy poaching; and even if poaching is brought under control, 
it may take years for normal birth rates and juvenile survival 
to be restored.
    In recognition of these threats, the Asian elephant has 
been accorded the highest levels of legal protection through 
national laws and international treaties. It is listed as 
``Endangered'' under the U.S. Endangered Species Act and on the 
TUCN--World Conservation Union Red List, and on ``Appendix I'' 
of CITES. Most of the thirteen Asian elephant range countries, 
including India, reinforce these international listings with 
domestic laws of their own. CITES listing, which is designed to 
eliminate the world-wide trade in ivory, has been partially 
successful. However, some illegal ivory obtained from poaching 
continues to move from country to country. Many Asian countries 
have the strong desire to reduce the levels of poaching and 
stop all illegal trade, but they need assistance if they are to 
improve their ability to enforcement the CITES controls.
    In addition, while national legislation has afforded the 
elephant with maximum protection on paper, local conditions 
often serve to make this safety net more illusory than real. 
Forests in many areas can be owned by local District Councils 
or private individuals and subject to uncontrolled slash and 
burn, shifting cultivation, leading to disappearance of prime 
elephant habitats. Erratic economic and political situations as 
well as lack of emphasis on wildlife-related crimes have made 
it difficult for some countries to effectively enforce laws and 
to efficiently manage their elephant populations and other 
natural resources.
    For these reasons, the Asian elephant is in trouble--and it 
will take more than legal paperwork to ensure its survival. 
Asian elephants need active protection and management of their 
habitat, resolution of the deleterious conflicts with humans 
over land uses, better law enforcement activities to protect 
against poaching, reduction of captures from the wild, and 
better care and humane treatment of the remaining captive 
populations. They also need the restoration of the harmonious 
relationship that previously existed with humans through 
community education and awareness activities.
    Given the already endangered status of the Asian elephant 
and the new and insidious threats now facing it from the 
factors described above, it is indeed timely that this 
Subcommittee is now considering H.R. 1787, the Asian Elephant 
Conservation Act of 1997. This Act acknowledges the problems of 
forest habitat reduction and fragmentation, conflicts with 
humans, poaching and other serious issues affecting the Asian 
elephant. The Act addresses the need to encourage and assist 
initiatives of regional and national agencies and organizations 
whose activities directly or indirectly promote the 
conservation of Asian elephants and their habitat, and it 
provides for the establishment of an Asian Elephant 
Conservation Fund, authorized to receive donations and 
appropriated funds. While many range governments have 
demonstrated a commitment toward conservation, the lack of 
international support for their efforts has been a serious 
impediment.
    Patterned after the African Elephant Conservation Act of 
1988 and the Rhinoceros and Tiger Conservation Act of 1994, the 
Asian Elephant Conservation Act would assign responsibility for 
implementation to the Secretary of the Interior, in 
consultation with the Administrator of the Agency for 
International Development. The bill would authorize the 
Secretary to make grants designed to benefit Asian elephants in 
the world.
    The Service would also mesh the administration of this new 
legislation with our existing responsibilities under the 
Endangered Species Act, using our experience gained during more 
than twenty years of participation in cooperative wildlife 
programs in Asia--including, among many other projects, a ten-
year ecological study of the Asian elephant in India involving 
training, research, and management activities.
    Additionally, the Service has facilitated CITES 
implementation workshops in six Asian countries, and has so far 
provided support for 15 projects under the Rhinoceros and Tiger 
Conservation Act in three countries, with many more proposals 
now under review. The Service has developed an excellent 
working relationship with most Asian elephant range countries 
and with the CITES Secretariat, as well as establishing an 
important network of worldwide experts, advisors and 
cooperators that can be drawn upon for support and expertise.
    Implementation of the Asian Elephant Conservation Act by 
the Service would be based on the pattern established by the 
African Elephant and Rhinoceros and Tiger Conservation Acts. 
The Service would develop a grant program with a call for 
proposals that would be sent out to a mailing list of potential 
cooperators from regional and range country agencies and 
organizations, including CITES partners and the CITES 
Secretariat. The Act's criteria for proposal approval gives the 
Service clear guidance, and priority would be given to 
proposals which would directly support and enhance wild 
elephant populations and which include necessary matching 
funds.
    All amounts made available through the Conservation Fund 
would be allocated as quickly and as efficiently as possible. 
We expect that Asian elephant range countries and international 
organizations would submit a variety of conservation proposals 
for support, including research, management, conflict 
resolution, community outreach and education, law enforcement, 
CITES implementation, captive breeding, genetic studies and 
traditional mahout and koonkie elephant training.
    Given the success under the African Elephant Conservation 
Act and the Rhinoceros and Tiger Conservation Act, we expect 
that the Asian Elephant Conservation Act would make a major 
contribution to conservation, filling a significant void in our 
current programs. It would send a strong message to the world 
that the people of the United States care deeply about Asian 
elephants and that the U.S. Government is committed to helping 
preserve this keystone species of the remaining tropical and 
subtropical Asian forests.
    For these reasons, Mr. Chairman, we urge this Subcommittee 
to give favorable consideration to H.R. 1787, the Asian 
Elephant Conservation Act of 1997.
                                ------                                


    Statement of Terry Maple, Ph.D., President/CEO, Zoo Atlanta, & 
      President-Elect, American Zoo & Aquarium Association, (AZA)

    Mr. Chairman and Members of the Subcommittee:
    Thank you for the opportunity to appear here today. I am 
Dr. Terry Maple, President and CEO of Zoo Atlanta in Atlanta, 
Georgia, and President-Elect of the American Zoo and Aquarium 
Association (AZA). On behalf of AZA and its members, I want to 
express my appreciation for the concern and interest that the 
Chairman and this Subcommittee have historically shown for the 
conservation of threatened and endangered species. I would 
especially like to thank the Chairman and Congressman 
Abercrombie for introducing H.R 1787, and thank the 
Subcommittee members who have cosponsored this bill. The AZA 
strongly supports this legislation.
    The AZA represents virtually every professionally operated 
zoological park, aquarium, oceanarium, and wild animal park in 
North America, as well as 6500 individual members. More than 
119 million people visit the AZA's 180 zoos and aquariums each 
year, more than attend all professional baseball, basketball, 
football, and hockey games combined.
    In 1988, this Subcommittee recognized the serious threat 
the African elephant faced from poaching and loss of habitat by 
strongly supporting the African Elephant Conservation Act 
(AECA). While the Act's imposition of a ban on the importation 
to the United States of African ivory was important, the 
establishment of the African Elephant Conservation Fund has 
made the Act critical to the survival of the species. This Fund 
is the only continuous source of money (matching) to assist 
African countries and organizations in their conservation 
efforts to protect and manage these magnificent creatures. The 
Fund has supported over 50 conservation projects in seventeen 
range states to enhance habitat protection--anti-poaching 
equipment for example--which has helped increase the elephant 
populations in many regions of southern Africa.
    Regrettably, the Asian elephant is now in need of similar 
help. It faces serious threats--not just from ivory poaching, 
but from a greater threat, the loss of habitat due to a rapidly 
expanding human population throughout its range.
    By creating the Asian Elephant Conservation Act and its 
subsequent Fund, the United States will have the opportunity to 
once again demonstrate its leadership and commitment to 
wildlife conservation. The Asian elephant is a flagship species 
for the tropical forests of Asia; securing its long-term 
viability will in turn assist in the conservation of tigers, 
rhinoceros, Asiatic wild dog, gaur, green peafowl, kouprey, 
pheasants, clouded leopards, Malayan sunbears, lion-tailed 
macaques, and gibbons.
    Unlike the African elephant, whose populations range 
between 600,000 to 700,000 animals, the Asian elephant 
population only numbers between 35,000 to 45,000 animals. 
Furthermore, the population is highly fragmented throughout 
thirteen countries; only in four areas does the population 
consist of more than 1,000 animals. Its range once streched 
widely from Iraq through the Indian subcontinent to China. 
Today, it can no longer be found in West Asia.
    Ironically, for over 4,000 years, this species has enjoyed 
a unique relationship with humankind in Asia. Elephants serve 
as an element in certain religious ceremonies, and function in 
the region's forestry operations. However, because of the 
serious need to feed the continent's expanding population, 
people are no longer tolerating incidents of crop-raiding. 
Resolving the growing friction between humans and elephants 
will require flexibility and long-term commitment--two tools 
offered by the Act.
    The goals of the Act and its subsequent fund would be the 
following: (1) protection of the remaining elephant populations 
and their habitat; (2) establishment and management of 
specially protected areas; (3) reduction of captures from the 
wild, most notably in Burma; and (4) promotion of effective 
community enforcement programs.
    H.R. 1787 would focus on remedies that address human/
elephant conflict resolution. That is a difference from the 
focus of the AECA which focuses on trade-related aspects of 
conservation. The Act would give support to projects that 
accomplish one or more of the following: (1) directly promote 
wild elephant management practices; (2) monitor population 
trends; (3) assess annual ranging patterns of known 
populations; (4) enforce CITES; (5) encourage law enforcement 
through community participation; (6) translocate elephants; and 
(7) conduct community outreach and education.
    Today, AZA institutions exhibit 155 Asian elephants. Asian 
and African elephants are magnificent animals that are 
difficult to exhibit, manage, and breed. They have complex 
social structures--at times rivaling those of humankind--and 
are extremely intelligent.
    As important as it is for our institutions to conduct 
research on and educate our visitors about the life patterns of 
the Asian elephant, it is as equally important that resources 
be made available to protect the wild Asian elephant 
populations in its habitat.
    In summary, AZA strongly believes H.R. 1787 should receive 
the full support of this Subcommittee for the following 
reasons:
        <bullet> it will provide competitive financing where it is 
        needed most--in the wild to support protection, conservation, 
        and management of threatened Asian elephants;
        <bullet> it is focused and cost-effective, yet flexible enough 
        to address immediate needs for conservation;
        <bullet> it will encourage donations from private sources--a 
        fine example of a public-private partnership; and
        <bullet> funding requests will be based on sound science.
    Thank you for the opportunity to testify before you today in 
support of H.R. 1787.
                                 ______
                                 
     Statement of Raman Sukumar, Chairman, IUCN/SSC Asian Elephant 
                            Specialist Group
    The Asian elephant, which has shared a special bond with people 
since time immemorial, now faces an uncertain future. It has steadily 
declined in most of its range states in Asia to a population of below 
50,000 in the wild and about 15,000 in captivity, a level which is 
under 10 percent of that of the African elephant. Loss of habitat, 
capture of elephants for domestication, and poaching for ivory and meat 
are the major causes for the decline of the species in recent decades. 
Dedicated conservation efforts, backed by adequate financial support, 
are needed to reverse these trends and ensure the long-term 
conservation of the species.
    The elephant was first tamed in the Indian sub-continent about 4000 
years ago. Since then it has carried our heaviest burdens and fought 
innumerable battles. Kings have used the elephant both as a machine of 
war and an ambassador of peace. It is worshipped by Hindus in the form 
of Ganesha, the elephant-headed god, while the Buddha himself is 
considered to be the reincarnation of a sacred white elephant. No other 
relationship between man and beast equals the splendour of the 
elephant-human relationship.
    A species which once ranged widely from the Tigris-Euphrates basin 
in West Asia eastward to the Yangtze river and beyond in China, is now 
confined to the Indian sub-continent, southeast Asia and some islands 
in Asia. Of the estimated wild population of 50,000 elephants, about 50 
percent is found in a single country, India. Other important 
populations are seen in Burma (5000-6000), Indonesia (2800-4800), Sri 
Lanka (2500-3200), Thailand (1500-3000) and Malaysia (1000-1500). Its 
status is unclear in potentially important countries such as Laos, 
Cambodia and Vietnam, although it is known that elephants are in 
relatively low numbers. Elephant populations in China, Bangladesh, 
Bhutan and Nepal are relatively insignificant.
    There are several causes for the decline of the elephant in Asia. 
In many countries the loss and fragmentation of habitat due to 
expansion of cultivation, settlement and developmental projects have 
squeezed elephant populations into small, unviable areas. Indonesia, 
for instance, has a transmigration scheme for resettlement of people 
from the island of Java into Sumatra. The diversion of forest land for 
settlement and agriculture has severely fragmented the habitat, such 
that there are believed to be over 40 distinct elephant populations on 
the island. The story is similar in peninsular Malaysia, where the 
rapid conversion of natural forests to plantations of rubber and oil 
palm has isolated elephant herds.
    The loss of forest to agriculture occurs in a different context in 
northeastern India and countries such as Burma, Laos and Cambodia. 
Here, slash-and-burn shifting cultivation on hill slopes has denuded 
forest cover considerably. Vast areas are permanently devoid of forest 
cover because of short rotation periods of shifting cultivation. In 
southern India, developmental projects such as dams, roads, railway 
lines, mines and commercial plantations of tea and coffee have made 
considerable inroads into hill forests and fragmented the habitat. In 
Sri Lanka, the Mahaweli Ganga Project, a series of dams and 
agricultural development, has begun to compress elephant populations.
    Fewer than 10 populations, 6 of them in India, have over 1000 
elephants each, a level needed to ensure its long term viability. The 
majority of populations have much fewer numbers, often less than 100 or 
50 elephants each, which are not viable even in the short term.
    The second major cause for the decline of the elephant is its 
capture and killing in large numbers. During the past century alone, up 
to 100,000 elephants have been captured in Asia. Although most 
countries have officially stopped any large scale capture of elephants, 
some illegal captures still continue in southeast Asia. However, it is 
now certain that the extremely low densities and numbers of elephants 
in many southeast Asian countries, particularly the Indo-China region, 
is due to hunting of elephants for ivory, meat, skin and other elephant 
products. The precise magnitude of hunting impacts is not known because 
of lack of investigations in these countries. The ready availability of 
elephant products, including ivory and hide, in markets of these 
countries certainly testifies to the severity of the problem.
    Equally if not more important is the consumer demand for elephant 
products such as ivory from East Asian nations, in particular Japan. A 
new wave of elephant poaching is sweeping through Asia, affecting 
countries such as India. Here, the selective poaching of male elephants 
for tusks has caused serious imbalances in the population structures. 
The ratio of male to female elephants has skewed considerably in many 
populations in southern India; in one major population there is only 
one adult male for every 100 adult females. As the number of male 
elephants declines, and sex ratios become more unequal, genetic 
variation is lost to the detriment of the population.
    A socio-economic dimension to the problem of conserving elephants 
is the impact of elephants on humans and their crops and property. As 
habitats become fragmented and elephant get compressed, there is 
escalation of crop depredations and manslaughter by elephants. In India 
alone over 200 people are killed by wild elephants each year, often 
when elephants enter crop fields and settlements at night in search of 
forage. The economic losses to crop damage by elephants run into 
several million dollars annually in the Asian countries. In Malaysia 
the losses to commerical rubber and oil palm plantations reached such 
levels that they prompted the expression ``the million dollar white 
elephant.'' In a region undergoing rapid socio-economic transformation, 
the traditional tolerance of farmers toward the elephant is 
disappearing.
    The coming century will decide the ultimate fate of the Asian 
elephant and other creatures on this earth. Fortunately with the 
elephant, the problems have been well identified and solutions 
available to ensure its survival and long term conservation. Basically, 
there are four major aspects to the conservation of the elephant. These 
are:
          (1) Maintaining viable, contiguous habitats of high quality 
        through setting up of networks of protected areas.
          (2) Minimizing elephant-human conflicts through appropriate 
        measures.
          (3) Controlling the poaching of elephants for ivory and other 
        products.
          (4) Managing the large numbers of captive elephants through 
        proper health care, training, breeding and use.
    Although the task is enormous, given the wide geographical spread 
of the species, there is urgent need to consolidate upon and expand the 
scope of various conservation projects being carried out on a small 
scale. India's Project Elephant is one model which can be adapted for 
other Asian countries. There is urgent need to impart training and 
transfer technical expertise to personnel in many Asian countries.
    Over the past two decades, the Asian Elephant Specialist Group has 
been the most active player in elephant conservation efforts in Asia. 
The basic details of the status and distribution of the elephant have 
been pieced together through the work of its members. An Action Plan 
for the Asian Elephant was published by the group in 1990. Several 
studies of fundamental importance to the conservation of the ele-

phant have been undertaken or are in progress. The considerable 
achievements of the AESG and other organizations and institutions have 
been made with very modest funding. The time has come to implement the 
conservation strategies which have evolved over the years. This calls 
for much higher levels of funding from the international community.
    The irony that I see in the plight of the Asian elephant is that it 
is arguably the ultimate flagship species for conservation of 
biological and cultural diversity in Asia. The elephant is a keystone 
species in the tropical forests of south and southeast Asia, which are 
biologically one of the most diverse regions in the world. Conserving 
the wild elephant would automatically ensure that hundreds of thousands 
of plant and animal species would also be conserved in Asian tropical 
forests. The proper care and management of captive elephants would 
ensure that elements of the rich cultural heritage of this region would 
be preserved. We surely have a responsibility to saving the most 
magnificent of our fellow creatures.
                                 ______
                                 

 Statement of Mary Corliss Pearl, Ph.D., Executive Director, Wildlife 
                    Preservation Trust International

    My name is Dr. Mary Pearl, and I represent Wildlife 
Preservation Trust International, a U.S.-based wildlife 
conservation organization. At WPTI, we seek to save endangered 
species from extinction through projects in collaboration with 
local scientists and educators. We work primarily in areas 
where there are human population pressures, human-wildlife 
conflicts, highly diverse or unique ecosystems, and where 
hands-on efforts are needed for animal survival. We integrate 
methods from captive breeding and reintroduction to veterinary 
care, public education, and wildlife research. We have no 
higher priority than the conservation of the elephant.
    Elephants are marvels of nature: their size is awesome--
they can stand over twelve feet tall and weigh over 15,000 
pounds. One elephant molar can weigh ten pounds, and the 
amazing elephant trunk contains at least 150,000 muscles, 
enabling it to uproot a tree or lift a small coin. Elephants 
are intelligent and emotional and inextricably entwined in 
human history. Four thousand years ago, elephants were used to 
carry burdens. Elephants were used in battle by King Porus 
against Alexander the Great, by King Pyrrhus over the Romans, 
and during the Vietnam War. Humans use elephants to log 
forests, transport loads, carry tourists through parks and 
religious relics to temples. Elephants, unlike any machinery, 
can maneuver in mountainous, inaccessible terrain, through 
water and forests with minimal environmental impact. In the 
United States, circus and zoo elephants have inspired awe, 
respect, and affection for generations.
    Despite this heroic history, both the Asian and African 
elephant species are facing tremendous pressure toward 
extinction. In Africa, the chief culprit has been poaching for 
tusks for the ivory trade. In Asia, where only a portion of 
adult males grow tusks, the main problem is habitat loss. Since 
the early 1980's, the African population has fallen 50 percent, 
to an estimated 600,000 animals. This steep decline has been 
halted to some degree by the worldwide ban on ivory trade, and 
by improved, internationally coordinated law enforcement.
    The Asian elephant is not as fortunate. Perhaps because 
habitat loss is relatively slow and quiet compared to the drama 
of violent gangs of poachers, the constant decline in elephants 
in Asia has continued without much world notice. Yet today, the 
worldwide population of Asian elephants is down to fewer than 
50,000 animals, isolated in small pockets in India, Myanmar, 
Sri Lanka, China, Thailand, Laos, Cambodia, Malaysia, 
Indonesia, and Vietnam. Because hunting for tusks is limited to 
males, in some areas the ratio of males to females has been 
reduced to one to one hundred. In such circumstances, it is 
virtually impossible for all potential mothers to mate. Even in 
the best of circumstances, elephants typically only produce an 
offspring every four to 6 years, so that elephant populations 
are extremely slow to recover from steep decline. Moreover, up 
to one-third, or 15,000 of the world's Asian elephant 
population lives in captivity, mostly in logging camps. This 
share of captive animals is growing: as more natural habitat is 
converted into agricultural lands, the resident elephants 
become ``agricultural pests'' and are taken into captivity. The 
productivity and health of the worldwide captive population of 
elephants is important for the future of the species. Yet much 
captive management falls short of minimum standards for humane 
care, and successful captive breeding cannot take place, 
although it will be necessary to take the hunting pressure off 
of remaining wild elephants.
    The endangered status of Asian elephants is especially 
poignant because for thousands of years, they have lived in 
close association with humans, as an integral part of religions 
and cultures. Yet beyond their essential role in Buddhism and 
Hindu-

ism, elephants are essential in traditional forest management 
systems in many parts of Asia, and the continued economic 
viability of sustainable tropical timber harvesting depends on 
the maintenance of captive elephant populations. In Myanmar, an 
elephant work force of 3,000 is used to manage the logging 
industry. Elephants are critically important not only 
culturally and economically, but also ecologically, in that 
they maintain habitat that other wildlife needs. A host of 
plants and animals depend on the elephant, which as ``the 
architect of the forest,'' creates clearings in which they can 
also live and grow.
    Despite the low numbers of Asian elephants and the troubles 
they face, they are not doomed to inevitable extinction. While 
the situation of the Asian elephant is urgent, it is certainly 
not hopeless. We know what we must do to stabilize the 
population. We must locate and identify all remaining 
significant local populations of elephants, and determine their 
minimum critical habitat requirements. We must make plans to 
translocate isolated elephants to places where they can become 
part of an effective, reproducing local population. We must 
resolve conflicts where elephants are ruining people's 
livelihoods in such a way that both people and elephants have 
viable futures. We must devise ways to better manage captive 
populations so that they are self-sustaining, humanely cared 
for, and a source of replenishment for remaining wild herds.
    At WPTI, we have begun this work in partnership with the 
India-based Asian Elephant Conservation Centre, thanks to the 
generosity of our members and of various private foundations, 
including the John D. and Catherine T. MacArthur Foundation, 
the Liz Claiborne/Art Ortenberg Foundation, and the Chase 
Wildlife Foundation. We are fortunate that throughout the Asian 
elephant range countries, there are competent and personally 
committed scientists and wildlife managers ready and willing to 
work with us to reverse the decline in elephants. However, the 
urgency of our mission is such that we cannot accomplish what 
we need to on private support alone. That is why H.R. 1781, the 
Asian Elephant Conservation Act, is so important. Rather than 
``throwing money at the problem,'' this legislation would 
direct a modest amount that would bring ongoing efforts up to 
the needed level of intensity and accomplishment. In other 
words, the proposed U.S. contribution to Asian elephant 
conservation represents leverage appropriate to American 
interests and values, which will result in far greater 
expenditures of funds and effort at the local level, within 
elephant range countries.
    Asian elephants are an international treasure, for 
aesthetic, cultural, economic, and ecological reasons. Our 
world would be diminished and Asian forests would deteriorate 
without these magnificent creatures. Saving the beloved 
elephant is a more compelling goal than the abstract notion of 
forest protection, and therefore attention to this flagship 
species is a compelling means to preserve the wild lands we all 
need for the health of the biosphere. WPTI is fortunate that 
several private foundations and our membership have helped us 
conduct preliminary work needed to reverse the recent decline 
in elephant numbers. However, the situation is urgent, and our 
financial resources are stretched to the limit. The additional 
assistance that the Asian Elephant Conservation Act would 
provide would allow the international conservation community to 
move much more quickly in what is truly a race to save the 
Asian elephant.

[GRAPHIC] [TIFF OMITTED] T5140.001

[GRAPHIC] [TIFF OMITTED] T5140.002

[GRAPHIC] [TIFF OMITTED] T5140.003

[GRAPHIC] [TIFF OMITTED] T5140.004

[GRAPHIC] [TIFF OMITTED] T5140.005

[GRAPHIC] [TIFF OMITTED] T5140.006

[GRAPHIC] [TIFF OMITTED] T5140.007

[GRAPHIC] [TIFF OMITTED] T5140.008

[GRAPHIC] [TIFF OMITTED] T5140.009

[GRAPHIC] [TIFF OMITTED] T5140.010

[GRAPHIC] [TIFF OMITTED] T5140.011

[GRAPHIC] [TIFF OMITTED] T5140.012

[GRAPHIC] [TIFF OMITTED] T5140.013

[GRAPHIC] [TIFF OMITTED] T5140.014

[GRAPHIC] [TIFF OMITTED] T5140.015

[GRAPHIC] [TIFF OMITTED] T5140.016

[GRAPHIC] [TIFF OMITTED] T5140.017

[GRAPHIC] [TIFF OMITTED] T5140.018

[GRAPHIC] [TIFF OMITTED] T5140.019

[GRAPHIC] [TIFF OMITTED] T5140.020

[GRAPHIC] [TIFF OMITTED] T5140.021

[GRAPHIC] [TIFF OMITTED] T5140.022

[GRAPHIC] [TIFF OMITTED] T5140.023

[GRAPHIC] [TIFF OMITTED] T5140.024

[GRAPHIC] [TIFF OMITTED] T5140.025

[GRAPHIC] [TIFF OMITTED] T5140.026

[GRAPHIC] [TIFF OMITTED] T5140.027

[GRAPHIC] [TIFF OMITTED] T5140.028

[GRAPHIC] [TIFF OMITTED] T5140.029

[GRAPHIC] [TIFF OMITTED] T5140.030

[GRAPHIC] [TIFF OMITTED] T5140.031

[GRAPHIC] [TIFF OMITTED] T5140.032

[GRAPHIC] [TIFF OMITTED] T5140.033

[GRAPHIC] [TIFF OMITTED] T5140.034

[GRAPHIC] [TIFF OMITTED] T5140.035

[GRAPHIC] [TIFF OMITTED] T5140.036

[GRAPHIC] [TIFF OMITTED] T5140.037

[GRAPHIC] [TIFF OMITTED] T5140.038

[GRAPHIC] [TIFF OMITTED] T5140.039


</pre></body></html>
